 December 28, 2004




Financial Management
Reliability of U.S. Army Corps of
Engineers, Civil Works, Fund Balance
With Treasury and Unexpended
Appropriations (D-2005-026)




                 Department of Defense
             Office of the Inspector General

                                   Constitution of
                                  the United States

     A Regular Statement of Account of the Receipts and Expenditures of all public
     Money shall be published from time to time.
                                                             Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at http://www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit, Audit Followup and Technical
  Support at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                   ODIG-AUD (ATTN: AFTS Audit Suggestions)
                   Inspector General of the Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
CEEMIS                U.S. Army Corps of Engineers Enterprise Management
                         Information System
CEFMS                 U.S. Army Corps of Engineers Financial Management System
DoD FMR               Department of Defense Financial Management Regulation
DFAS                  Defense Finance and Accounting Service
FMS                   Financial Management Service
GAO                   Government Accountability Office
OIG                   Office of the Inspector General
OSD(C)                Office of the Secretary of Defense (Comptroller)
SFFAS                 Statement of Federal Financial Accounting Standards
SOP                   Standard Operating Procedures
USACE                 U.S. Army Corps of Engineers
                                 INSPECTOR      GENERAL
                                 DEPARTMENT OF DEFENSE
~~                                 400 ARMY NAVY DRIVE
                              ARLINGTON, VIRGINIA 22202-4704

~                                                                           December 28, 2004

     MEMORANDUM FOR UNDER SECRETARY OF DEFENSE
                      (COMPTROLLER)/CHIEF FINANCIAL OFFICER
                    AUDITOR GENERAL, DEPARTMENT OF THE ARMY

     SUBJECT: Report on Reliability of U.S. Anny Corps of Engineers, Civil Works,
              Fund Balance With Treasury and Unexpended Appropriations (Report
              No. D-2005-026)

            Weare providing this report for review and comment. Comments from the Under
     Secretary of Defense (Comptroller)/ChiefFinancial Officer were received too late to be
     considered in preparing the final report; however, we considered comments from the U.S.
     Anny Corps of Engineers when preparing the final report.
            DoD Directive 7650.3 requires that all recommendations be resolved promptly.
     The U.S. Army Corps of Engineers comments were partially responsive. Therefore, we
     request additional comments on Recommendations A.I.a., A.I.b., and A.I.c., by
     Januazy 28, 2005. Comments from the Under Secretary of Defense (Comptroller)/Chief
     Financial Officer were received too late to be considered in preparing the final report.
     Therefore, ifthe Under Secretary of Defense (Comptroller)/ChiefFinancial Officer does
     not submit additional comments by January 28,2005, we will consider the comments
     received as the response to the final report.
             If possible, please send comments in electronic format (Adobe Acrobat file only)
     to Auddfs@dodi2.osd.miL Copies of management comments must contain the actual
     signature for the authorizing official. We cannot accept the / Signed I symbol in the place
     of the actual signature. If you arrange to send classified comments electronically, they
     must be sent over the SECRET Internal Protocol Router Network (SIPRNET)
             We appreciate the courtesies extended to the staff. Questions should be directed
     to Mr. Douglas Neville at (703) 428-1061 (DSN 328-1061) or Mr. William W. Lemmon
     at (703) 428-1405 (DSN 328-1405). For the report distribution, see Appendix L. The
     team members are listed inside the back cover.
                                    By direction of the Deputy Inspector General for Auditing:



                                              4Pau':b~
                                                 ~  . Granetto, CPA
                                            Assis t Inspector General
                                            Defense Financial Auditing
                                                     Service
          Office of the Inspector General of the Department of Defense


Report No. D-2005-026                                                     December 28, 2004
   (Project No. D2004FD-0044)

         Reliability of U.S. Army Corps of Engineers, Civil Works,
                      Fund Balance With Treasury and
                         Unexpended Appropriations

                                  Executive Summary

Who Should Read This Report and Why? This report is intended solely for the use of
U.S. Army Corps of Engineers (USACE) and should not be used by anyone other than
USACE. Generally accepted government auditing standards require the report to clarify
its availability to the public. This report is a matter of public record and its distribution is
not limited. This report contains guidance that the Department can follow to validate and
assess the Fund Balance With Treasury accounts of the Department’s other reporting
entities.

Background. We performed this project in support of Public Law 101-576, the “Chief
Financial Officers Act of 1990,” November 15, 1990, as amended by Public
Law 103-356, the “Federal Financial Management Act of 1994,” October 13, 1994.

Reconciling Fund Balance With Treasury accounts, including the reconciliation of
differences, is a key internal control process. Reconciliation ensures the reliability of the
Government’s receipt and disbursement data reported by agencies. Unresolved
differences compromise the reliability of Fund Balance With Treasury account balances,
the Treasury’s published financial reports, and the overall status and integrity of the
Government’s financial position. As of December 31, 2003, DoD reported $1.5 trillion
in total assets, including $593.8 billion in its Fund Balance With Treasury accounts.

Results. The attestation results will assist the USACE in its efforts to establish the
beginning FY 2004 Fund Balance With Treasury and Unexpended Appropriations–
Cumulative (Unexpended Appropriations) for the FY 2004 USACE, Civil Works,
financial statements.

USACE did not comply with generally accepted accounting principles. Specifically,
USACE recorded $361.8 million of noncompliant funding in the U.S. Army Corps of
Engineers Financial Management System (CEFMS) for the Fund Balance With Treasury
and Unexpended Appropriations accounts. Furthermore, USACE did not establish Fund
Balance With Treasury accounts in CEFMS for 7 of 47 expenditure and receipt accounts
required by the United States Code and assigned by Treasury, and omitted $1.3 billion
(absolute value) of transactions applicable to the accounts. Finally, USACE commingled
appropriation warrants and nonexpenditure transfers in the CEFMS subsidiary accounts
for Fund Balance With Treasury. As a result, USACE did not maintain reliable funding
information in CEFMS for the Fund Balance With Treasury and Unexpended
Appropriations accounts. The limitations in the reliability of funding recorded in
CEFMS contributed to the disclaimer of opinion on the September 30, 2003, USACE
Civil Works financial statements because USACE was unable to provide sufficient audit-
ready evidence for the auditors to complete the audit (finding A).

USACE erroneously reported $100.2 million of unprocessed interagency transfer
collections (that is, USACE reported collections that had not yet occurred) to the
Treasury and the Office of Management and Budget as of September 30, 2003. In
addition, the USACE revolving fund created $318.6 million of unreconciled collection
and disbursement differences. As a result, USACE did not report reliable Fund Balance
With Treasury amounts to the Treasury and the Office of Management and Budget. The
reliability of reported collection and disbursement amounts for the revolving fund
contributed to the disclaimer of opinion on the September 30, 2003, USACE, Civil
Works, financial statements (finding B).

Management Comments and Audit Response. Comments from the Under Secretary
of Defense (Comptroller)/Chief Financial Officer were received too late to be considered
in preparing the final report. Therefore, if the Under Secretary of Defense
(Comptroller)/Chief Financial Officer does not submit additional comments by
January 28, 2005, we will consider the comments received as the response to the final
report. The comments provided by the Commander, U.S. Army Corps of Engineers on
Recommendations A.1.a., A.1.b., and A.1.c., were partially responsive. Therefore, we
request additional comments on the final report by January 28, 2005. The Commander
concurred with Recommendations A.1. and B. See the Finding sections of the report for
a discussion of management comments and the Management Comments section of the
report for the complete text of the comments.




                                           ii
Table of Contents

Executive Summary                                                            i

Background                                                                   1

Objectives                                                                   3

Findings
     A. Reliability of Fund Balance With Treasury Funding Recorded in the
          U.S. Army Corps of Engineers Financial Management System           4
     B. Reliability of Fund Balance With Treasury Collection and
          Disbursement Amounts Reported to Treasury and the Office of
          Management and Budget                                             15

Appendixes
     A. Scope and Methodology                                               22
     B. Prior Coverage                                                      24
     C. U.S. Army Corps of Engineers Accounting and Reporting for
          Continuing Resolution Authority                                   26
     D. Accounting Standards and Criteria for Fund Balance With Treasury
          and Unexpended Appropriations                                     28
     E. Treasury Reports for Fund Balance With Treasury                     30
     F. Glossary                                                            32
     G. U.S. Army Corps of Engineers Subsidiary Accounts for Fund Balance
          With Treasury                                                     35
     H. Accounting Entries to Record Funding                                37
     I. FY 2003 Transactions Applicable to Expenditure and Receipt
          Accounts Excluded from CEFMS and CEEMIS                           38
     J. DoD Disbursing Stations, Finance Centers, and the DoD Reporting
          Process for Collections and Disbursements                         39
     K. Procedures and Requirements for Interagency Transfers               41
     L. Report Distribution                                                 45

Management Comments
     U.S. Army Corps of Engineers                                           47
Background
           We performed this project in support of Public Law 101-576, the “Chief Financial
           Officers Act of 1990,” November 15, 1990, as amended by Public Law 103-356,
           the “Federal Financial Management Act of 1994,” October 13, 1994. As part of
           the strategy to implement those laws, the Office of Management and Budget
           further requires certain DoD entities, including the U.S. Army Corps of Engineers
           (USACE), Civil Works, to prepare audited financial statements.

           When the Office of the Inspector General of the Department of Defense (OIG
           DoD) published the, “Independent Auditor’s Report on the U.S. Army Corps of
           Engineers, Civil Works, Fiscal Year 2003 Principal Financial Statements,”
           (Report No. D-2004-032), December 3, 2003, we did not report on Fund Balance
           With Treasury or Unexpended Appropriations – Cumulative (Unexpended
           Appropriations).1 We stated that USACE was unable to provide sufficient audit-
           ready evidential material for the auditors to complete the audit. Therefore, we
           agreed to complete the unfinished audit work using agreed-upon procedures.

           USACE and OIG DoD established a memorandum of agreement, “Agreed-Upon
           Procedures to Establish Beginning Balances for the Audit of the Principal U.S.
           Army Corps of Engineers, Civil Works, Financial Statements for the Fiscal Years
           Ending September 30, 2004 and 2003,” November 20, 2003. The memorandum
           of agreement discussed procedures needed to verify the material line items and
           related accounts on the FY 2003 Balance Sheet.

           We performed the procedures to assist USACE in its efforts to establish the
           beginning FY 2004 Fund Balance With Treasury and Unexpended Appropriations
           balances for the Principal USACE, Civil Works, financial statements for the fiscal
           years ending September 30, 2004 and 2003. The beginning balances for the
           FY 2004 financial statements represent the FY 2003 ending balances. The
           FY 2003 USACE, Civil Works financial statements reported:

                   •   total assets of $38.4 billion, including $2.6 billion in the Fund Balance
                       With Treasury account and

                   •   total liabilities and net position of $38.4 billion, including $0.6 billion
                       in the Unexpended Appropriations account.

           Neither account represented a majority of USACE total assets or total liabilities
           and net position. However, many Balance Sheet accounts are affected by entries
           initially made to the Fund Balance With Treasury account.

           We also followed up on USACE progress on OIG DoD suggestions to improve
           business processes and internal controls for Fund Balance With Treasury reported
           in the OIG DoD FY 2002 Fund Balance With Treasury Cycle Memorandum for
           USACE, Civil Works, November 13, 2003. However, the agreed-upon
           procedures used in attestation engagement alone are not sufficient for USACE to
           establish beginning balances for Fund Balance With Treasury and Unexpended
           Appropriations. A full financial audit will better address the reliability of
1
    See Appendix D for a discussion on the accounting standards and criteria for Fund Balance With
    Treasury and Unexpended Appropriations.



                                                      1
           recorded collections and disbursements, the USACE Financial Management
           System (CEFMS), and the USACE Enterprise Management Information System
           (CEEMIS).2

           The Fund Balance With Treasury and Unexpended Appropriations accounts are
           the responsibility of the USACE. In addition, the sufficiency of the agreed-upon
           procedures to meet USACE objectives is solely the responsibility of USACE.
           Therefore, we disclaim responsibility for the sufficiency of those procedures. We
           were not engaged to perform, and did not perform, an examination of the subject
           matter, the objective of which would be the expression of an opinion or a
           disclaimer of opinion. Therefore, we do not express such an opinion. Had we
           performed additional procedures, other matters might have come to our attention
           that would have been reported.3

           Treasury Accounts. Article I, Section 9, of the Constitution of the United States
           of America, states that “a regular Statement and Account of the Receipts and
           Expenditures of all public Money shall be published from time to time.” DoD
           Regulation 7000.14-R, the “DoD Financial Management Regulation,” volume 1,
           chapter 8, appendix B, “Hierarch of Accounting Standards,” May 1998,
           recognizes that the Department of Treasury (Treasury) publishes the Treasury
           Financial Manual. The Federal Account Symbols and Titles Book, a supplement
           to the Treasury Financial Manual, includes a listing of all assigned account
           symbols, account titles, and fund groups. In those publications, Treasury
           classifies accounts as either receipt accounts or expenditure accounts. Each
           receipt account and expenditure account has a trial balance of proprietary
           accounts including Fund Balance With Treasury.

           Treasury Reports for Fund Balance With Treasury. Treasury prepares five
           Fund Balance With Treasury reports including three for receipt accounts and two
           for expenditure accounts. As of September 30, 2003, Treasury reports for Fund
           Balance With Treasury accounted for 47 USACE accounts with FY 2003 activity
           or balances. The 47 accounts included 13 receipt accounts and 34 expenditure
           accounts. See Appendix E for a discussion of the Treasury reports for Fund
           Balance With Treasury. See Appendix F for a glossary of Fund Balance With
           Treasury terminology.

           Fund Balance With Treasury Process. Reconciling Fund Balance With
           Treasury accounts, including the reconciliation of differences, are a key internal
           control process. Reconciliation ensures the reliability of the Government’s
           receipt and disbursement data reported by agencies. Therefore, all Government
           agencies must perform timely reconciliations and implement effective and
           efficient reconciliation processes. Unresolved differences compromise the
           reliability of Fund Balance With Treasury account balances, the Treasury’s
           published financial reports, and the overall status and integrity of the
           Government’s financial position. As of December 31, 2003, the DoD reported


2
    CEFMS maintains trial balances by district for each of the 61 USACE districts. CEEMIS consolidates
    the 61 trial balances into 1 trial balance for each receipt account or expenditure account. We obtained the
    CEFMS trial balance for each receipt account and expenditure account from CEEMIS. References to
    CEFMS refer to CEFMS balances obtained through CEEMIS.
3
    Statements required by the American Institute of Certified Public Accountants, Statements on Standards
    for Attestation Engagements.



                                                        2
    $1.5 trillion in total assets, including $593.8 billion in its Fund Balance With
    Treasury accounts.


Objectives
    Our overall audit objective was to conduct agreed-upon procedures to assist the
    USACE in its efforts to establish beginning FY 2004 Fund Balance With
    Treasury and Unexpended Appropriations balances for the Principal USACE,
    Civil Works, financial statements for the fiscal years ending September 30, 2004
    and 2003. We were not engaged to perform, and did not perform, an examination
    of the subject matter, the objective of which would be the expression of an
    opinion or a disclaimer of opinion. Therefore, we do not express such an opinion.
    See Appendix A for a discussion of the scope and methodology. See Appendix B
    for prior coverage related to the objectives. See Appendix C for a discussion
    regarding the USACE accounting and reporting for continuing resolution
    authority, an element of Fund Balance With Treasury funding not covered in
    finding A.




                                          3
           A. Reliability of Fund Balance With
              Treasury Funding Recorded in the
              U.S. Army Corps of Engineers
              Financial Management System
           USACE did not comply with generally accepted accounting principles.
           Specifically, USACE recorded $361.8 million of noncompliant funding in
           CEFMS for the Fund Balance With Treasury and Unexpended
           Appropriations accounts. Furthermore, USACE did not establish Fund
           Balance With Treasury accounts in CEFMS for 7 of 47 expenditure and
           receipt accounts required by the United States Code and assigned by
           Treasury, and omitted $1.3 billion (absolute value) of transactions
           applicable to the accounts. Finally, USACE commingled appropriation
           warrants and nonexpenditure transfers in the CEFMS subsidiary accounts
           for Fund Balance With Treasury.

           CEFMS contained noncompliant transactions because of CEFMS
           limitations. Further, Fund Balance With Treasury accounts were omitted
           from CEFMS because USACE did not develop a complete set of standard
           operating procedures for the Fund Balance With Treasury account.
           USACE commingled transactions because the DoD Regulation 7000.14-
           R, the “DoD Financial Management Regulation,” (DoD FMR) did not
           require separate subsidiary accounts for Fund Balance With Treasury to
           facilitate reconciliation with amounts reported separately on Treasury
           reports.

           As a result, USACE did not maintain reliable funding information in
           CEFMS for the Fund Balance With Treasury and Unexpended
           Appropriations accounts. The limitations in the reliability of funding
           recorded in CEFMS contributed to the disclaimer of opinion on the
           September 30, 2003, USACE Civil Works financial statements because
           USACE was unable to provide sufficient audit-ready evidence for the
           auditors to complete the audit.


General Ledger Accounts and Funding Types
    General Ledger Accounts. The Treasury Financial Manual, volume 1,
    supplement, “U.S. Standard General Ledger,” June 2003, establishes standard
    general ledger accounts for proprietary and budgetary accounts. The proprietary
    accounts include account 1010, “Fund Balance With Treasury,” and account
    3100, “Unexpended Appropriations – Cumulative.” See Appendix G for a
    discussion of USACE subsidiary accounts for Fund Balance With Treasury.

    Funding Type. The FMR identifies the accounting entries required to record
    funding in the Fund Balance With Treasury account. See Appendix H for a
    discussion of the accounting entries required to record funding. Treasury issues
    appropriation warrants and makes nonexpenditure transfers to provide agencies
    with funding. The Treasury issues appropriation warrants to establish the
    individual amounts appropriated by Congress directly in agency expenditure


                                        4
           accounts and to transfer funds from some unavailable receipt accounts to
           expenditure accounts. Funds in expenditure accounts are available for obligation
           during a specific period, referred to as the period of availability, and for
           liquidating those obligations for 5 additional fiscal years. The Treasury transfers
           funds between expenditure accounts through nonexpenditure transfers
           (transferred by either hardcopy SF [Standard Form] 1151, “Nonexpenditure
           Transfer Authorization,” or electronically through the Government-wide
           accounting system). The appropriation warrants include:

                    •   hardcopy appropriation warrants (FMS [Financial Management
                        Service] 6200, “Department of the Treasury Appropriation Warrant”),

                    •   invisible warrant funding4 used to electronically transfer funds from
                        available receipt accounts to expenditure accounts, and

                    •   drawdowns used to remove funds from expenditure accounts.

Compliance With Generally Accepted Accounting Principles
           USACE did not maintain reliable funding information in CEFMS for the Fund
           Balance With Treasury and Unexpended Appropriations accounts. USACE did
           not comply with generally accepted accounting principles by recording
           $361.8 million of noncompliant funding transactions in CEFMS for the Fund
           Balance With Treasury and Unexpended Appropriations accounts. The
           transactions, called “Work Allowances” by USACE, reflect contract authority
           provided by the USACE headquarters to USACE districts to begin making
           obligations before Treasury provides funding. Although contract authority is a
           legitimate form of budget authority, the Treasury does not record funding based
           on contract authority in the Treasury reports for Fund Balance With Treasury.

           The entries made by USACE to the Fund Balance With Treasury account for
           contract authority do not comply with generally accepted accounting principles
           established in Statement of Federal Financial Accounting Standards No. 1,
           “Accounting for Selected Assets and Liabilities,” March 30, 1993, because the
           transactions reflect contract authority, not funding. Standard No. 1 does not allow
           agencies to record contract authority as part of Fund Balance With Treasury.
           Paragraph 34 states:
                    An entity’s fund balance with Treasury does not include contract authority or unused
                    authority to borrow. Contract authority is statutory authority under which contract or
                    other obligations can be entered into prior to receiving an appropriation for the payment
                    of obligations . . .


4
    Volume 1, part 2, chapter 1500, “Description of Accounts Relating to Financial Operations,” April 5,
    2001, of the Treasury Financial Manual states that available special fund or trust fund receipts are
    immediately available in their entirety as appropriations to a single agency for expenditure without
    further congressional action. Treasury standard general ledger policy, “Unavailable Special Fund Receipt
    Accounts,” February 24, 1999, states that “an available special fund receipt account has legal authority to
    obligate and expend its balances immediately without further action by Congress. The Treasury Central
    Accounting System, STAR, will automatically (invisible warrant) transfer the balance from the available
    special fund receipt account into the special fund expenditure account with the same main account
    symbol. This will be reflected on the agency FMS Form 6655 Receipt Account Ledger and FMS Form
    6653 Undisbursed Appropriation Account Ledger.”



                                                        5
           Further, section 1004, “Financial Reporting: Checklist for Reports Prepared
           Under the CFO Act Checklist,” of the General Accounting Office/President’s
           Council on Integrity and Efficiency Financial Audit Manual, July 2001, includes
           a checklist to assist agencies in preparing financial statements and assist auditors
           in auditing the statements. The checklist is intended to help provide for a
           systematic, organized, and structured approach to preparing or reviewing agency
           financial statements. For Fund Balance With Treasury, the checklist contains a
           question on whether the entity’s Fund Balance With Treasury excludes contract
           authority or unused authority to borrow.

           USACE officials stated that contract authority was recorded in the Fund Balance
           With Treasury and Unexpended Appropriations accounts because of CEFMS
           limitations that require a sufficient Fund Balance With Treasury to fund an
           obligation before the obligation can be established in the budgetary accounts.
           CEFMS required a sufficient Fund Balance With Treasury even when the
           budgetary accounts included sufficient contract authority to cover the obligation.

           During the preparation of the FY 2003 USACE Financial Statements, USACE
           made $361.8 million of Fund Balance With Treasury adjustments to remove
           noncompliant transactions from the financial statements. The adjustments
           removed contract authority from the Fund Balance With Treasury accounts
           maintained in CEFMS for four expenditure accounts.5 However, the adjustments
           contributed to the disclaimer of opinion on the September 30, 2003, USACE Civil
           Works, financial statements.


Expenditure Accounts and Receipt Accounts Required by the
  United States Code and Assigned by Treasury
           USACE did not establish Fund Balance With Treasury accounts in CEFMS
           for 7 of 47 expenditure and receipt accounts required by the United States Code
           and assigned by Treasury. USACE did not establish or maintain Fund Balance
           With Treasury accounts in CEFMS, and consequently in CEEMIS, for:

                   •   expenditure accounts

                            −   96033129, “Payment to the South Dakota Terrestrial Wildlife
                                Habitat Restoration Trust Fund (fiscal year),”

                            − 96X5007, “Special Recreation Use Fees, Corps of Engineers,
                              Civil,”

                            − 96X8217, “South Dakota Terrestrial Wildlife Habitat
                              Restoration Trust Fund,” and

                            − 9620X8863, “Harbor Maintenance Trust Fund,” and

5
    The four expenditure accounts are account 96X8333, “Coastal Wetlands Restoration Trust Fund,”
    account 9620X8861, “Inland Waterways Trust Fund,” account 9689X4045, “Bonneville Power
    Administration Fund, Power Marketing Administrations, Department of Energy,” and account
    9669X8083, “Federal-Aid Highways (Liquidation of Contract Authorization), Federal Highway
    Administration.”



                                                    6
          •   receipt accounts

                  − 965125, “Licenses Under Federal Power Act, Improvements of
                    Navigable Waters, Maintenance and Operation of Dams,”

                  − 968217.001, “Payment from General Fund, South Dakota
                    Terrestrial Wildlife Habitat Restoration Trust Fund,” and

                  − 968217.002, “Earnings on Investments, South Dakota
                    Terrestrial Wildlife Habitat Restoration Trust Fund.”

    The accounts were omitted from the systems because USACE did not develop a
    complete set of standard operating procedures for Fund Balance With Treasury.
    Specifically, USACE did not develop a procedure to require accountants to
    compare the Fund Balance With Treasury accounts for each expenditure and
    receipt account reported on the monthly Treasury reports for Fund Balance With
    Treasury with the Fund Balance With Treasury accounts established in CEFMS
    and CEEMIS. The procedure would ensure that USACE establishes and
    maintains all expenditure and receipt accounts in both CEFMS and CEEMIS.

    As a result, USACE omitted a total $1.3 billion (absolute value) of FY 2003
    transactions from CEFMS, as follows.

          •   For expenditure accounts, USACE omitted $1.3 billion in FY 2003
              transactions, including beginning balances ($0.8 thousand),
              appropriation warrants ($60.4 million), nonexpenditure transfers
              ($619.3 million), and net disbursements ($578.9 million).

          •   For receipt accounts, USACE omitted $17.8 million in FY 2003
              transactions for collections as shown in Appendix I.


Subsidiary Accounts Used for Appropriation Warrants and
  Nonexpenditure Transfers
    USACE commingled appropriation warrants and nonexpenditure transfers in the
    CEFMS subsidiary accounts for Fund Balance With Treasury, including funds
    collected, funds disbursed, and beginning Fund Balance With Treasury. The
    Treasury reports for Fund Balance With Treasury have separate lines to report
    appropriation warrants and nonexpenditure transfers. However, USACE did not
    establish and maintain separate subsidiary accounts in CEFMS for USACE
    appropriation warrants and nonexpenditure transfers to facilitate reconciliation
    with the Treasury reports for Fund Balance With Treasury or to systematically
    reconcile the Treasury reports with corresponding CEFMS amounts.
    Consequently, we reconciled USACE appropriation warrants (hardcopy
    appropriation warrants, invisible warrant funding, and drawdowns) and
    nonexpenditure transfers reported on the Treasury reports for Fund Balance With
    Treasury with the Fund Balance With Treasury subsidiary accounts in CEFMS.
    The reconciliation showed the following.

          •   Funds Collected. CEFMS account 1010.11, “Funds Collected,” and
              account 1010.14, “Funds Collected-Advances Received,” also included
              drawdowns.


                                        7
                   •   Funds Disbursed. CEFMS account 1010.21, “Funds Disbursed,” also
                       included nonexpenditure transfers.

                   •   Beginning Fund Balance With Treasury. CEFMS account 1010.31,
                       “Funds With Treasury,”6 account 1010.34, “Fund Balance With
                       Treasury – Advances Received,” account 1010.41, “Undistributed
                       Collections,” account 1010.51, “Undistributed Disbursements,” also
                       included hardcopy warrants, invisible warrant funding, drawdowns,
                       and nonexpenditure transfers.

           For example, during FY 2002, USACE commingled the beginning Fund Balance
           With Treasury, appropriation warrants, and nonexpenditure transfers applicable to
           expenditure account 96X3123, “Operation and Maintenance, General, Corps of
           Engineers, Civil,” in USACE subsidiary account 1010.31, “Funds With
           Treasury,” established for expenditure account 96X3123. USACE did not
           commingle amounts applicable to expenditure account 96X3123 with amounts
           applicable to other USACE expenditure accounts. The commingling of
           transaction types within CEFMS precluded USACE and auditors from
           reconciling, in a timely manner, the appropriation warrants and nonexpenditure
           transfers recorded in CEFMS with the corresponding amounts reported on the
           Treasury reports for Fund Balance With Treasury or with source documents.

           USACE commingled appropriation warrants and nonexpenditure transfers in the
           Fund Balance With Treasury subsidiary accounts. This occurred because the
           FMR requires agencies to use a single account, account 1013, “Funds With
           Treasury,” to record beginning Fund Balance With Treasury, appropriation
           warrants, and nonexpenditure transfers for each expenditure account.

           The FMR did not require separate subsidiary accounts for Fund Balance With
           Treasury to facilitate reconciliation with amounts reported separately on Treasury
           reports for Fund Balance With Treasury. Specifically, the DoD FMR did not
           require separate Fund Balance With Treasury subsidiary accounts for:

                   •   appropriation warrants, including FMS 6200, “Department of the
                       Treasury Appropriation Warrant,” invisible warrant funding, and
                       drawdowns,

                   •   hardcopy SF 1151, “Nonexpenditure Transfer Authorization,” and
                       electronic nonexpenditure transfers made through the Government-
                       wide accounting system, and

                   •   beginning fiscal year Fund Balance With Treasury.

           Subsequently, in a memorandum, the Under Secretary of Defense
           (Comptroller)/Chief Financial Officer established a requirement for the Defense
           Finance and Accounting service (DFAS) to reconcile collection and disbursement
           amounts reported in the Department’s Fund Balance With Treasury accounts
           maintained for each expenditure account by each DFAS Center. However, the

6
    DoD Regulation 7000.14-R, the “DoD Financial Management Regulation,” volume 4, chapter 2,
    “Accounting for Cash and Fund Balances With Treasury,” January 1995, requires agencies to close out
    Funds Collected and Funds Disbursed into Funds With Treasury at fiscal year-end. Therefore, Funds
    With Treasury represents the beginning Fund Balance With Treasury for the next fiscal year.



                                                     8
    Comptroller did not require DFAS to separately reconcile appropriation warrants
    and nonexpenditure transfers reported in the proprietary accounts with the
    corresponding amounts reported separately in the Treasury reports for Fund
    Balance With Treasury. Also, the requirement did not specifically apply to
    USACE because DFAS does not perform the accounting for USACE.


Progress by USACE
    On May 3, 2004, the USACE finance center provided 13 standard operating
    procedures (7 revised procedures, 6 new procedures) relating to Fund Balance
    With Treasury. USACE provided the procedures in response to informal
    suggestions included in the OIG DoD FY 2002 Fund Balance With Treasury
    Cycle Memorandum for USACE, Civil Works, November 13, 2003, (cycle
    memorandums are not formally published for public distribution). We included
    the suggestions in the memorandum to expedite USACE improvements to internal
    controls and the availability of audit-ready evidential material, and to eliminate
    Fund Balance With Treasury impediments to an unqualified audit opinion.

    Just prior to receiving the procedures, we distributed a discussion draft of this
    report. The report updates the data and refines the suggestions included in the
    cycle memorandum, and includes formal recommendations.. As a result, the
    recently issued USACE procedures do not specifically address the report
    recommendations. However, USACE plans to update the procedures to
    incorporate the recommendations in this report.

    The following procedure attributes would have a continuing benefit to
    accountants and auditors:

          •   number and issue date of superseded procedures,

          •   issue date and effective date for revised or new procedures,

          •   summary of procedural changes, and

          •   point of contact and phone number.

    In addition, the procedures, accompanied by an overall table of contents, should
    be posted to a website to facilitate the availability of the information.

Conclusions
    USACE needs to improve the reliability of the funding information recorded in
    the Fund Balance With Treasury and Unexpended Appropriations accounts. The
    limitations in the reliability of funding recorded in CEFMS contributed to the
    disclaimer of opinion on the September 30, 2003, USACE Civil Works, financial
    statements.

    USACE needs to develop a complete set of standard operating procedures to
    establish a systematic process for reconciling the account. A systematic process,
    consistently applied from period to period, will facilitate an economical and
    sustainable audit effort by reducing the time, effort, and annual cost required for

                                         9
           an audit. The process will also assist in meeting accelerated reporting
           requirements7 and reduce the risk of material misstatement.

           The process should ensure that USACE routinely establishes Fund Balance With
           Treasury accounts within its accounting system for all USACE expenditure and
           receipt accounts and takes full advantage of Treasury reports for Fund Balance
           With Treasury. The reports include separate lines for beginning Fund Balance
           With Treasury, appropriation warrants, and nonexpenditure transfers, and were
           designed to facilitate reconciling those elements of the account with agency
           records. USACE should make appropriate systems changes to accommodate the
           reconciliation requirements.

           The Office of the Under Secretary of Defense (Comptroller)/Chief Financial
           Officer should revise the FMR to include subsidiary accounts for appropriation
           warrants, nonexpenditure transfers, and beginning Fund Balance With Treasury to
           facilitate reconciliation with Treasury reports for Fund Balance With Treasury,
           which reported significant dollar amounts of funding activity.8 The revision
           should be coordinated with DoD efforts regarding business system modernization
           and Business Enterprise Architecture. The subsidiary accounts will simplify the
           reconciliation of Fund Balance With Treasury and assist the Department in
           achieving its goal of obtaining a favorable opinion on the DoD agency-wide
           financial statements. In addition, the improvements will assist the Department in
           routinely providing decision-makers with timely, accurate, and useful Fund
           Balance With Treasury information. As reported by the Government
           Accountability Office (GAO),9 providing such information is one of the measures
           established by the Joint Financial Management Improvement Program for
           achieving financial management success.




7
    The Office of Management and Budget accelerated its Performance and Accountability Report deadline
    from January 30, 2004, for the FY 2003 report to November 15, 2004, for the FY 2004 report.
8
    The September 30, 2003, Treasury reports for Fund Balance With Treasury reported $212.2 billion for
    beginning fiscal year Fund Balance With Treasury, $559.1 billion for current year appropriations, and
    $21.1 billion for nonexpenditure transfers applicable to the Office of the Secretary of Defense, Army,
    Navy, Air Force, and USACE.
9
    Report No. GAO-04-551T, “Department of Defense: Further Actions Needed to Establish and
    Implement a Framework for Successful Financial and Business Management Transformation,” March 23,
    2004.



                                                      10
Recommendations, Management Comments, and Audit
  Response
    A.1. We recommend that the Commander, U. S. Army Corps of Engineers:

           a. Revise accounting practices for expenditure account 96X8333,
    account 9620X8861, account 9689X4045, and account 9669X8083 to comply
    with generally accepted accounting principles and exclude contract authority
    from the Fund Balance With Treasury account, as required by Statement of
    Federal Financial Accounting Standards No. 1, “Accounting for Selected
    Assets and Liabilities,” paragraph 34, March 30, 1993.

    Management Comments. The Commander, U.S. Army Corps of Engineers
    concurred. A CEFMS problem report will be developed by December 31, 2004,
    to satisfy the requirements of Statement of Federal Financial Accounting
    Standards (SFFAS) No 1, paragraph 34. The USACE Finance Center Directorate
    of Financial Systems will provide an estimated timeframe to accomplish the
    system change. USACE is presently making a journal voucher, which is
    adjusting the financial statements to reduce the work allowance/contract authority
    from the Fund Balance with Treasury account. This step will ensure that the
    financial statements are reasonably and fairly presented.

    Audit Response. The Commander, U.S. Army Corps of Engineers comments are
    partially responsive. We request that the Commander, U.S. Army Corps of
    Engineers provide a specific timeframe to accomplish the system change in
    response to the final report.

           b. Modify the U.S. Army Corps of Engineers Financial Management
    System to comply with generally accepted accounting principles and exclude
    contract authority from the Fund Balance With Treasury account, as
    required by Statement of Federal Financial Accounting Standards No. 1,
    “Accounting for Selected Assets and Liabilities,” paragraph 34, March 30,
    1993. Specifically, modify the system to allow valid obligations to be
    recorded for trust fund accounts, with sufficient contract authority to cover
    the obligation, without regard to the balance in the Fund Balance With
    Treasury account.

    Management Comments. The Commander, U.S. Army Corps of Engineers
    concurred. As stated in the response to Recommendation A.1.a., a CEFMS
    problem report will be developed by December 31, 2004, to satisfy the
    requirements of SFFAS No 1, paragraph 34. The Finance Center Directorate of
    Financial Systems will provide an estimated timeframe to accomplish the system
    change. Presently, CEFMS will not allow for an obligation to be processed
    without proper authority.

    Audit Response. The Commander, U.S. Army Corps of Engineers comments are
    partially responsive. We request that the Commander, U.S. Army Corps of
    Engineers provide a specific timeframe to accomplish the system change in
    response to the final report.

          c. Establish and maintain U.S. Standard General Ledger
    account 1010, “Fund Balance With Treasury,” in the U.S. Army Corps of


                                        11
Engineers Financial Management System and the U.S. Army Corps of
Engineers Enterprise Management Information System to facilitate
reconciliation with Treasury reports for Fund Balance With Treasury.
Specifically, establish Fund Balance With Treasury accounts for:

             (1) Expenditure account 96033129, “Payment to the South
Dakota Terrestrial Wildlife Habitat Restoration Trust Fund (fiscal year),”
account 96X5007, “Special Recreation Use Fees, Corps of Engineers, Civil,”
account 96X8217, “South Dakota Terrestrial Wildlife Habitat Restoration
Trust Fund,” and account 9620X8863, “Harbor Maintenance Trust Fund.”

              (2) Receipt account 965125, “Licenses Under Federal Power
Act, Improvements of Navigable Waters, Maintenance and Operation of
Dams,” account 968217.001, “Payment from General Fund, South Dakota
Terrestrial Wildlife Habitat Restoration Trust Fund,” and
account 968217.002, “Earnings on Investments, South Dakota Terrestrial
Wildlife Habitat Restoration Trust Fund.”

Management Comments. The Commander, U.S. Army Corps of Engineers
concurred. USACE will establish procedures to record the Treasury warrant and
the payment from the expenditure account and collection to the South Dakota
Terrestrial Wildlife Habitat Restoration Trust Fund in the CEFMS database
(accounts 96033129 and 96X8217.001). In addition, USACE will investigate a
possible method of recording in CEFMS the following appropriations Special
Recreation Use Fees-96X5007, Harbor Maintenance Trust Fund-96 20X8863,
Licenses Under Federal Power Act-96X5125, and South Dakota Trust fund-
96X8217.002. The USACE Finance Center will coordinate with Headquarters
Budget on issuing a funding authorization document, and a subsequent revocation
will be recorded in the CEFMS database for 96X5007.

Audit Response. The Commander, U.S. Army Corps of Engineers comments are
partially responsive. We request that the Commander, U.S. Army Corps of
Engineers provide a specific timeframe for accomplishing these actions in the
response to the final report.

       d. Establish and maintain separate Fund Balance With Treasury
subsidiary accounts in the U.S. Army Corps of Engineers Financial
Management System and the U.S. Army Corps of Engineers Enterprise
Management Information System to facilitate reconciliation with Treasury
reports for Fund Balance With Treasury. Specifically, establish separate
Fund Balance With Treasury subsidiary accounts for:

              (1) Appropriation warrants including (a) FMS 6200,
“Department of the Treasury Appropriation Warrant,” (b) invisible warrant
funding, and (c) drawdowns.

              (2) SF 1151, “Nonexpenditure Transfer Authorization,” and
electronic nonexpenditure transfers made through the Government-wide
accounting system.

              (3) Beginning fiscal year Fund Balance With Treasury.

Management Comments. The Commander, U.S. Army Corps of Engineers
concurred. The USACE will coordinate with the Office of the Secretary of

                                  12
Defense (Comptroller) (OSD[C]) on their guidance for establishing fund type-
specific general ledger attributes, and CEFMS will be modified to be in
compliance with the OSD(C) guidance.

      e. Develop a comprehensive standard operating procedure for Fund
Balance With Treasury that requires accountants to:

              (1) Compare the Fund Balance With Treasury accounts for
each expenditure and receipt account reported on the monthly Treasury
reports for Fund Balance With Treasury with the Fund Balance With
Treasury accounts established in the U.S. Army Corps of Engineers
Financial Management System and the U.S. Army Corps of Engineers
Enterprise Management Information System to ensure the recording of all
accounts in both systems.

Management Comments. The Commander, U.S. Army Corps of Engineers
concurred. USACE is performing reconciliation of Fund Balance with Treasury
expenditure and receipt accounts to Treasury.

              (2) Reconcile applicable Fund Balance With Treasury
subsidiary accounts shown in the U.S. Army Corps of Engineers Financial
Management System and the U.S. Army Corps of Engineers Enterprise
Management Information System for each expenditure and receipt account
with amounts reported on monthly Treasury reports for Fund Balance With
Treasury.

Management Comments. The Commander, U.S. Army Corps of Engineers
concurred. Reconciliation is performed at the summary account (1010) United
States Standard General Ledger level. On December 15, 2004, USACE requested
OSD(C) guidance for establishing fund type-specific general ledger attributes,
and CEFMS will be modified to be in compliance with the OSD(C) guidance.

       f. Revise the USACE procedures to include:

                (1) An overall table of contents, to a website to facilitate the
availability of the information.

               (2) Number and issue date of superseded procedures.

               (3) Issue date and effective date for revised or new procedures.

               (4) Summary of procedural changes.

               (5) Point of contact and phone number.


Management Comments. The Commander, U.S. Army Corps of Engineers
concurred. USACE Finance Center will establish a link on the public website to
the U.S. Army Corps of Engineer Finance Center Standard Operating Procedures
(SOPs). This will be completed by February 28, 2005.




                                    13
A.2. We recommend that the Under Secretary of Defense (Comptroller)/Chief
Financial Officer:

       a. Modify plans for the business system modernization and Business
Enterprise Architecture to establish separate Fund Balance With Treasury
subsidiary accounts for:

              (1) Appropriation warrants, including FMS 6200, “Department of
the Treasury Appropriation Warrant,” invisible warrant funding, and drawdowns.

               (2) SF 1151, “Nonexpenditure Transfer Authorization,” and
electronic nonexpenditure transfers made through the Government-wide
accounting system.

                (3) Beginning fiscal year Fund Balance With Treasury.

       b. Revise DoD Regulation 7000.14-R, the “DoD Financial Management
Regulation,” volume 4, “Accounting Policy and Procedures,” October 21, 2003,
in coordination with the business system modernization and Business Enterprise
Architecture efforts, to:

                (1) Establish separate Fund Balance With Treasury subsidiary
accounts for:

                     (a) Appropriation warrants, including FMS 6200,
“Department of the Treasury Appropriation Warrant,” invisible warrant funding,
and drawdowns.

                     (b) SF 1151, “Nonexpenditure Transfer Authorization,”
and electronic nonexpenditure transfers made through the Government-wide
accounting system.

                       (c) Beginning fiscal year Fund Balance With Treasury.

              (2) Require finance centers to reconcile applicable Fund Balance
With Treasury subsidiary accounts shown in the reporting entity’s general ledger
system for each expenditure and receipt account with applicable amounts reported
on monthly Treasury reports for Fund Balance With Treasury.

Management Comments. Comments on the draft report were received from the
Under Secretary of Defense (Comptroller)/Chief Financial Officer too late to be
incorporated into the final report. Therefore, if the Under Secretary of Defense
(Comptroller)/Chief Financial Officer does not submit additional comments, we
will consider those comments as the management response to the final report.




                                    14
           B. Reliability of Fund Balance With
              Treasury Collection and
              Disbursement Amounts Reported to
              Treasury and the Office of
              Management and Budget
           USACE erroneously reported $100.2 million of unprocessed interagency
           transfer collections (that is, USACE reported collections that had not yet
           occurred) to the Treasury and the Office of Management and Budget as of
           September 30, 2003. In addition, the USACE revolving fund created
           $318.6 million of unreconciled collection and disbursement differences.
           These conditions occurred because USACE did not:

                   •   establish cut-off procedures for the interagency transfer
                       reporting,

                   •   ensure procedures included guidance for reconciling and
                       resolving interagency transfer differences, and

                   •   establish revolving fund procedures to facilitate reconciliation
                       with Treasury reports for Fund Balance With Treasury

           As a result, USACE did not report reliable Fund Balance With Treasury
           amounts to the Treasury and the Office of Management and Budget. The
           reliability of reported collection and disbursement amounts for the
           revolving fund contributed to the disclaimer of opinion on the
           September 30, 2003, USACE, Civil Works, financial statements.


Collections and Disbursements
    DoD disbursing stations make collections and disbursements through interagency
    transfers, U.S. Treasury checks, and deposits. Disbursing stations are accountable
    to the Treasury for their collections and disbursements. All DoD disbursing
    stations, except USACE disbursing stations, report collections and disbursements
    to Treasury through their respective DFAS center. USACE disbursing stations
    report collections and disbursements directly to Treasury through the USACE
    finance center, Millington, Tennessee. See Appendix J for a discussion of DoD
    disbursing stations and finance centers and the DoD reporting process for
    collections and disbursements.

    Treasury and DoD have already established procedures and requirements for
    processing interagency transfers, reporting interagency transfers, and reconciling
    interagency transfer differences. DoD disbursing stations making interagency
    transfers should implement the Treasury and DoD procedures to strengthen the
    control environment at the station level. See Appendix K for a discussion of the
    procedures and requirements for interagency transfers.




                                         15
Reporting Interagency Transfers
            Treasury Reporting. USACE erroneously reported $100.2 million of
            unprocessed interagency transfer collections to Treasury as Fund Balance With
            Treasury on the September 30, 2003, Statement of Accountability and Statement
            of Transactions. USACE identified expenditure accounts (10 accounts) for
            $83.9 million of the $100.2 million of unprocessed interagency transfer
            collections. USACE was unable to reconcile the remaining $16.3 million of
            unprocessed interagency transfer collections or identify the applicable
            expenditure accounts.

            USACE erroneously included interagency transfer collections on the
            September 2003 Statement of Accountability and Statement of Transactions that
            the Treasury processed in October 2003 after the September 25, 2003, monthly
            cutoff. USACE corrected the $100.2 million error on the October 2003 Statement
            of Accountability and Statement of Transactions.10 However, the September 30,
            2003, Treasury reports for Fund Balance With Treasury included the erroneous
            interagency transfer collections but not the correction.

            USACE erroneously reported Fund Balance With Treasury information to
            Treasury because USACE did not establish cut-off procedures for interagency
            transfers to comply with monthly cut-off dates established in trading partner
            agreements for interagency transfers. In addition, the USACE Desk Operating
            Procedure, SOP No. 14, “SF 1220 & SF 1219 Statements of Accountability,”
            March 6, 2000, did not include procedures for reporting interagency transfers
            shown in the Intra-governmental Payment and Collection system to Treasury on
            the Statement of Accountability and Statement of Transactions.

            Financial Statement Reporting. The USACE erroneously reported
            $100.2 million of unprocessed interagency transfer collections to the Office of
            Management and Budget as Fund Balance With Treasury on the September 30,
            2003, USACE Balance Sheet.

            The USACE erroneously reported Fund Balance With Treasury on the Balance
            Sheet because USACE did not establish a complete set of standard operating
            procedures, as discussed in finding A, for reconciling and resolving interagency
            transfer differences reported on the Treasury Statements of Differences and for
            making applicable adjustments to the financial statements. Therefore, USACE
            did not reconcile the $100.2 million of interagency transfer differences reported
            on the September 30, 2003, Treasury Statements of Differences and document the
            effect of the differences on the:

                    •   Fund Balance With Treasury amounts reported on the September 30,
                        2003, Treasury reports on Fund Balance With Treasury and

                    •   Fund Balance With Treasury amounts reported on the September 30,
                        2003, U.S. Army Corps of Engineers’ financial statements.


10
      The $100.2 million USACE correction of FY 2003 interagency transfers accounted for 86.4 percent of
     all FY 2003 interagency transfer corrections ($116.0 million absolute value) reported by DoD on the
     Statement of Accountability from October 2003 through January 2004.



                                                     16
    Reconciliation of the interagency transfer differences reported on the
    September 30, 2003, Treasury Statements of Differences would have shown that
    the differences resulted from the unprocessed interagency transfer collections and
    that the September 30, 2003,

          •   USACE Statement of Accountability and Statement of Transactions
              overstated interagency transfer collections by $100.2 million,

          •   Treasury reports for Fund Balance With Treasury understated FY 2003
              USACE net disbursements and overstated the USACE Fund Balance
              With Treasury by $100.2 million, and

          •   USACE Balance Sheet overstated Fund Balance With Treasury by
              $100.2 million.

    Based on the reconciliation, USACE should have adjusted the financial
    statements for the unprocessed interagency transfer collections. USACE also
    should have adjusted proprietary accounts including Fund Balance With Treasury,
    accounts receivable, and applicable budgetary accounts on the September 30,
    2003, USACE, Civil Works, financial statements.


Revolving Fund Records
    In addition, USACE did not maintain reliable and auditable CEFMS collection
    and disbursement records for the revolving fund thereby creating $318.6 million
    of unreconciled differences with Treasury reports for Fund Balance With
    Treasury and Statements of Transactions. As of September 30, 2003, USACE
    had $318.6 million of unreconciled revolving fund differences between CEFMS
    and Treasury reports for Fund Balance With Treasury and agencies’ Statements of
    Transactions as shown in the table.




                                        17
 September 30, 2003, Unreconciled Revolving Fund Differences Between CEFMS and Treasury Reports for
                      Fund Balance With Treasury and Statements of Transactions


                                               Treasury Reports/       Unreconciled        Revolving Fund
                                                  Agencies’             Difference         Balance Overstated
                            CEFMS                 Statements         (Absolute Value)        (Understated)
October 1, 2002,
Balance                  $ 962,026,769.891       $ 902,533,127.04      $ 59,493,642.85         $ 59,493,642.85
FY 2003
Collections              3,788,494,125.222       3,700,418,039.42        88,076,085.80           88,076,085.80
FY 2003
Disbursements            3,783,967,530.713       3,612,944,765.32       171,022,765.39        (171,022,765.39)
September 30,
2003, Balance            $ 966,553,364.40        $ 990,006,401.14     $318,592,494.04         ($23,453,036.74)


               The unreconciled revolving fund differences occurred because USACE did not
               establish revolving fund procedures to facilitate reconciliation with Treasury
               reports for Fund Balance With Treasury (FMS 6653, “Undisbursed Appropriation
               Account Ledger”), which report collections separately from disbursements,
               collections by collecting agency, and disbursements by disbursing agency.
               USACE should make full use of the Treasury reports for Fund Balance With
               Treasury by reconciling collections separately from disbursements, collections by
               collecting agency, and disbursements by disbursing agency. USACE processed a
               $23.4 million adjustment for the revolving fund to correct the $23.4 million
               CEFMS understatement of the revolving fund balance.


    Conclusions
               USACE did not report reliable Fund Balance With Treasury collection and
               disbursement amounts on the USACE Statement of Accountability and Statement
               of Transactions reports submitted to Treasury and the USACE financial
               statements. The limitations in the reliability of reported collection and
               disbursement amounts contributed to the disclaimer of opinion on the
               September 30, 2003, USACE financial statements.

               The erroneous USACE reporting of unprocessed interagency transfers on reports
               to Treasury and the USACE financial statements is not isolated to September 30,
               2003. USACE erroneously reported unprocessed interagency transfer collections

    1
        The amount shown includes the September 30, 2003, balances for CEFMS account 1010.310 and
        account 1010.340. The USACE generally uses the accounts to record beginning balances. However, in
        this instance, during FY 2003, USACE added $74,793,656.51 to the September 30, 2002, beginning
        balance of $887,233,113.38 shown in CEFMS for Fund Balance With Treasury.
    2
        The amount shown includes CEFMS account 1010.110 and account 1010.140. The accounts record State
        Department, USACE, Navy, and Air Force collections.
    3
        The amount shown includes CEFMS account 1010.210 and account 1010.510. The accounts record
        Treasury Department, State Department, Army, USACE, Navy, and Air Force disbursements.



                                                       18
            ($154.0 million) on the September 30, 2002, reports to Treasury and the
            September 30, 2002 financial statements.

            In addition, the $100.2 million overstatement of the September 30, 2003, Fund
            Balance With Treasury could cause misstatements of accounts receivable and the
            budgetary accounts (debit and credit) because of the unprocessed interagency
            transfers. The Fund Balance with Treasury and accounts receivable
            misstatements, when combined, could result in a $200.4 million misstatement of
            the September 30, 2003, USACE Civil Works, financial statements. However, a
            $200.4 million impact on the September 30, 2003, USACE financial statements
            would account for 20.3 percent of the $987.3 million materiality threshold
            applicable to all five September 30, 2003, USACE Civil Works, financial
            statements.

            Therefore, USACE should consider the Fund Balance With Treasury
            overstatement in aggregating errors relating to the period, as required by
            Statement of Federal Financial Accounting Standards No. 21, “Reporting
            Corrections of Errors and Changes in Accounting Principles,” October 2001,14
            and determine whether a material15 misstatement of the prior period or current
            period financial statements would occur if a correction is not made.

            Further, USACE accounted for 86.4 percent of all FY 2003 interagency transfer
            corrections ($116.0 million) made by DoD from October 2003 through
            January 2004. Improvement of the USACE business process for reporting
            interagency transfers to Treasury on the Statement of Accountability could
            significantly reduce DoD-wide interagency transfer differences. The
            improvements could also remove another impediment for Fund Balance With
            Treasury in the DoD effort to gain a favorable audit opinion on the USACE and
            DoD financial statements.

            Reconciling revolving fund collections and disbursements by agency will
            facilitate reconciliation with Treasury reports for Fund Balance With Treasury
            and improve the quality of evidence supporting financial statement adjustments
            and reduce the time, effort, and annual cost required for an audit.

            USACE should expand the standard operating procedures for Fund Balance With
            Treasury, recommended in finding A, to improve the reliability of Fund Balance
            With Treasury collection and disbursement amounts on the USACE Statement of
            Accountability and Statement of Transaction reports submitted to Treasury and
            the USACE financial statements. The standard operating procedure should also



14
      Statement of Federal Financial Accounting Standards No. 21, “Reporting Corrections of Errors and
     Changes in Accounting Principles,” October 2001, paragraph 5, requires that reporting entities restate
     prior period financial statements for material errors discovered in the current period, if such statements
     are provided for comparative purposes, and if the effect of the error would be material to the financial
     statements in either period.
15
      The Government Accountability Office/President’s Council on Integrity and Efficiency Financial Audit
     Manual, section 230, “Determine Planning, Design, and Test Materiality,” states that planning materiality
     is applicable to the financial statements taken as a whole, and design materiality is allocated to line items.
     Planning materiality generally should be three percent of the materiality base, and design materiality
     generally should be one percent of the materiality base (total assets or expenses net of adjustments for
     intergovernmental balances and offsetting balances).



                                                         19
    include procedures for making interagency transfers, reconciling and resolving
    interagency transfer differences, and reconciling revolving fund collections and
    disbursements.


Recommendations
    B. We recommend that the Commander, U.S. Army Corps of Engineers
    develop a comprehensive standard operating procedure for Fund Balance
    With Treasury that:

            1. Establishes cut-off procedures for interagency transfers that
    comply with monthly cut-off dates established in trading partner agreements
    for interagency transfers.

    Management Comments. The Commander, U.S. Army Corps of Engineers
    concurred. Cut-off procedures were implemented in FY 2004 in accordance with
    trading partner agreements and DFAS regulation.

           2. Requires USACE accountants to:

                   (a) Report interagency transfers on the Statement of
    Accountability and Statement of Transactions in compliance with fiscal year-
    end cut-offs established in trading partner agreements for interagency
    transfers.

    Management Comments. The Commander, U.S. Army Corps of Engineers
    concurred. Interagency transfer transactions are posted to the Statement of
    Accountability and Statement of Transactions in CEFMS as the transactions are
    processed.

                  (b) Reconcile interagency transfer differences reported on the
    monthly Treasury Statements of Differences and develop a matrix (similar to
    the table in Appendix J) to document the effect of the differences on the:

                       (1) Fund Balance With Treasury amounts reported on
    the monthly Treasury reports on Fund Balance With Treasury.

                         (2) Fund Balance With Treasury amounts reported on
    the quarterly and year-end U.S. Army Corps of Engineers’ financial
    statements.

    Management Comments. The Commander, U.S. Army Corps of Engineers
    concurred. USACE Financial Center SOP 104, dated April 2004, is in place to
    reconcile the Statement of Differences. It will be referenced in the updated
    USACE Financial Center SOP 102, dated March 2004, for reconciling Fund
    Balance with Treasury to be completed during FY 2005.

                   (c) Adjust amounts to be reported on the quarterly and year-
    end U.S. Army Corps of Engineers’ financial statements resulting from the
    reconciliation of the Treasury Statements of Differences when the error will
    cause a material misstatement if an adjustment is not made. Specifically,


                                        20
USACE should adjust proprietary accounts including, Fund Balance With
Treasury, accounts receivable, and applicable budgetary accounts.

Management Comments. The Commander, U.S. Army Corps of Engineers
concurred. A procedure is in place to reconcile the Statement of Differences for
FY 2005.

 (d) Reconcile revolving fund (96X4902) collections and disbursements
reported in the U.S. Army Corps of Engineers Financial Management
System with the monthly Treasury reports for Fund Balance With Treasury
(FMS 6653, “Undisbursed Appropriation Account Ledger”) as follows:

                      (1) Reconcile revolving fund collections separately
from disbursements.

Management Comments. The Commander, U.S. Army Corps of Engineers
concurred. Revolving Fund Cash is reconciled separately on a monthly basis.

                    (2) Reconcile revolving fund collections by collecting
agency and revolving fund disbursements by disbursing agency.

Management Comments. The Commander, U.S. Army Corps of Engineers
concurred. Current USACE Financial Center Revolving Fund Cash
Reconciliation SOPs will be revised during FY 2005 to formalize the detailed and
specific procedures for reconciling the Revolving Fund appropriation. A line
item on the 6653 may consist of disbursements and collections, but is reported on
the 6653 as a net disbursement.




                                    21
Appendix A. Scope and Methodology
           We performed the procedures applicable to the beginning FY 2004 Fund Balance
           With Treasury and Unexpended Appropriations for the Principal USACE, Civil
           Works, financial statements for the fiscal years ending September 30, 2004 and
           2003. Specifically, we followed up on USACE progress on suggestions to
           improve business processes and internal controls for Fund Balance With Treasury
           reported in the OIG DoD FY 2002 Fund Balance With Treasury Cycle
           Memorandum for the USACE, Civil Works.

           We reviewed actions taken by USACE to improve the reliability of funding
           recorded in the Fund Balance With Treasury and Unexpended Appropriations
           accounts. Specifically, we confirmed whether USACE FY 2003 accounting
           practices complied with Statement of Federal Financial Accounting Standards
           No. 1, “Accounting for Selected Assets and Liabilities,” March 30, 1993. In
           addition, we verified whether USACE had established Fund Balance With
           Treasury accounts in its systems for all expenditure and receipt accounts required
           by the United States Code and implemented by Treasury. Further, we verified
           whether USACE had established separate subsidiary accounts for appropriation
           warrants and nonexpenditure transfers to facilitate reconciliation with amounts
           reported separately on Treasury reports for Fund Balance With Treasury.1

           In addition, we reviewed actions taken by USACE to improve the reliability of
           Fund Balance With Treasury collections and disbursements included in the
           USACE reports to Treasury and USACE financial statements. Specifically, we
           confirmed whether the USACE properly processed and reported interagency
           transfers to Treasury on the Statement of Accountability and Statement of
           Transactions. In addition, we verified whether USACE fully reconciled and
           resolved interagency transfer differences reported by Treasury on the Statement
           of Differences and whether the reconciliation verified the impact of interagency
           transfer differences on the Treasury reports for Fund Balance with Treasury and
           the USACE financial statements. We also verified whether the USACE
           maintained reliable and auditable CEFMS collection and disbursement records for
           the revolving fund.

           Further, we confirmed with the Office of the Under Secretary of Defense
           (Comptroller)/Chief Financial Officer whether USACE cash management
           practices for expenditure account 96X8333, “Coastal Wetlands Restoration Trust
           Fund,” complied with volume 14, “Administrative Control of Funds and
           Antideficiency Act Violations,” April 2003, of the FMR.

           We performed the procedures, which we agreed to perform and with which
           USACE management concurred, from November 2003 through September 2004
           in accordance with and the General Accounting Office/President’s Council on
           Integrity and Efficiency Financial Audit Manual and generally accepted
           government auditing standards. Those standards incorporate financial audit and
           attestation standards established by the American Institute of Certified Public
1
    When appropriation warrants are received, agencies debit Fund Balance With Treasury and credit
    Unexpended Appropriations. We limited coverage of Unexpended Appropriations to appropriation
    warrants to preclude duplicating audit work relating to disbursements/accounts payable and
    collections/accounts receivable.



                                                   22
Accountants. We completed the agreed-upon procedures on September 15, 2004.
However, we did not comply with the AICPA attestation standard 201.25,
“Findings,” because we did not obtain USACE agreement with the definition of
materiality used to demonstrate the consequences of internal control weaknesses
discussed in the conclusion of finding B. In addition, we did not comply with the
AICPA attestation standard 201.31a, “Required Elements,” because the title of
the report does not include the word “independent.”

Use of Computer-Processed Data. We relied on computer-processed data from
the Treasury accounting and reporting system obtained through the Government
On-Line Accounting Link Information Access System II. Specifically, we relied
on the September 30, 2003, Treasury reports for Fund Balance With Treasury.
We relied on the Treasury reports for Fund Balance With Treasury to determine
the FY 2003 universe of USACE expenditure and receipt accounts. During the
previous agreed-upon procedures project applicable to the beginning FY 2003
USACE Fund Balance With Treasury and Unexpended Appropriations balances,
we compared elements of Fund Balance With Treasury shown on Treasury
reports for Fund Balance With Treasury to applicable source documents to
determine the completeness and accuracy of information reported on the Treasury
reports for Fund Balance With Treasury. The Fund Balance With Treasury
elements included appropriation warrants, nonexpenditure transfers, and net
disbursements. We did not find errors that would preclude use of the computer-
processed data.

During that previous agreed-upon procedures project, we reconciled the
appropriation warrants, nonexpenditure transfers, and net disbursements with
applicable computer-processed data reported in CEFMS. We performed the
reconciliation because prior Government Accountability Office and Army Audit
Agency audit reports concluded that auditors could not rely on CEFMS general
and application controls for transactions affecting the financial statements. We
relied on the reconciliation of computer-processed CEFMS data in conducting the
agreed-upon procedures applicable to the beginning FY 2004 USACE Fund
Balance With Treasury and Unexpended Appropriations balances. We concluded
that the computer-processed data within CEFMS was not reliable, as reported in
the findings of this report. However, we used the CEFMS data to illustrate Fund
Balance With Treasury policy issues in this report. The CEFMS data will not
materially affect the results of our agreed-upon procedures. We did not test the
general and application controls applicable to CEFMS.

In addition, we relied upon data from the Intra-governmental Payment and
Collection system, a Treasury system, for our work on interagency transfer
differences. We did not test the general and application controls applicable to the
Intra-governmental Payment and Collection system, which produced computer-
processed data for the Statement of Differences, because the system is outside the
scope of this project and the OIG DoD (Treasury maintains the system.).

Government Accountability Office High-Risk Area. The Government
Accountability Office has identified several high-risk areas in DoD. This report
provides coverage of the Financial Management high-risk area.




                                    23
Appendix B. Prior Coverage
    During the last 5 years, the Government Accountability Office (GAO), the
    Inspector General of the Department of Defense (IG DoD), and the U.S. Army
    Audit Agency (AAA) have issued 21 reports discussing Fund Balance With
    Treasury issues. Unrestricted GAO reports can be accessed over the Internet at
    http://www.gao.gov. Unrestricted IG DoD reports can be accessed at
    http://www.dodig.osd.mil/audit/reports. AAA reports are restricted to military
    domains and to the GAO.


GAO
    GAO Report No. GAO-04-551T, “Department of Defense: Further Actions
    Needed to Establish and Implement a Framework for Successful Financial and
    Business Management Transformation,” March 23, 2004

    GAO Report No. GAO-02-589, “Information Security: Corps of Engineers
    Making Improvements, But Weaknesses Continue,” June 10, 2002

    GAO Report No. GAO-01-847, “Financial Management: Improvements in Air
    Force Fund Balance With Treasury Reconciliation Process,” July 18, 2001

    GAO Report No. GAO-01-89, “Financial Management: Significant Weaknesses
    in Corps of Engineers’ Computer Controls,” October 11, 2000

    GAO Report No. GAO/AIMD-99-271, “Financial Audit: Issues Regarding
    Reconciliations of Fund Balances With Treasury Accounts,” September 17, 1999

IG DoD
    IG DoD Report No. D-2004-032, “Independent Auditor’s Report on the U.S.
    Army Corps of Engineers, Civil Works, Fiscal Year 2003 Principal Financial
    Statements,” December 3, 2003
    IG DoD Report No. D-2004-023, “Financial Management: Corps of Engineers
    Financial Management System Accounting Processes,” November 18, 2003

    IG DoD Report No. D-2003-034, “Adjustments to the Intergovernmental
    Payments Account,” December 10, 2002

    IG DoD Report No. D-2002-019, “Checks Issued Differences for Deactivated
    Disbursing Stations,” November 28, 2001

    IG DoD Report No. D-2001-024, “Performance Measures for Disbursing
    Stations,” December 22, 2000




                                       24
IG DoD (cont’d)
      IG DoD Report No. D-2000-123, “Disclosure of Differences in Deposits,
      Interagency Transfers, and Checks Issued in the FY 1999 DoD Agency-Wide
      Financial Statements,” May 18, 2000

      IG DoD Report No. D-2000-044, “Reconciliation of Differences Reported for
      Checks Issued by the Defense Finance and Accounting Service Columbus Center
      Disbursing Stations,” November 30, 1999

      IG DoD Report No. 99-226, “Interagency Transfer Reconciliations at Defense
      Finance and Accounting Service Columbus Center Disbursing Stations,” July 28,
      1999

      IG DoD Report No. 99-211, “Deposit Reconciliations at Defense Finance and
      Accounting Service Columbus Center Disbursing Stations,” July 9, 1999

AAA
      AAA Report No. A-2002-0610-FFC, “Corps of Engineers Financial Management
      System: General and Application Controls,” September 30, 2002

      AAA Report No. AA 02-142, “FY 2001 Financial Statements, U.S. Army Corps
      of Engineers, Civil Works,” February 08, 2002

      AAA Report No. AA 01-187, “FY 2000 Financial Statements, U.S. Army Corps
      of Engineers, Civil Works,” February 14, 2001

      AAA Report No. AA 00-190, “Unexpended Appropriations, Army Working
      Capital fund FY 99 Financial Statements,” February 28, 2000

      AAA Report No. AA 00-186, “FY 1999 Financial Statements, U.S. Army Corps
      of Engineers, Civil Works,” February 18, 2000
      AAA Report No. AA 99-255, “FY 1998 Financial Statements Significant Matters,
      USACE,” June 02, 1999

      AAA Report No. AA 99-157, “FY 1998 Financial Statements, U.S. Army Corps
      of Engineers, Civil Works,” February 08, 1999




                                        25
Appendix C. U.S. Army Corps of Engineers
            Accounting and Reporting for
            Continuing Resolution Authority
   Background. Continuing resolutions are joint resolutions (passed by the House
   and the Senate and signed by the President) that provide continuing
   appropriations for a fiscal year. Continuing resolutions are enacted when
   Congress has not yet passed one or more appropriations bills for a fiscal year or
   when the President has vetoed congressionally passed appropriations bills.
   Lacking appropriations, most programs cannot incur new obligations.

   Continuing resolutions usually do not appropriate specific sums of money.
   Instead, continuing resolutions provide formulas for calculating the amounts
   available for continuing programs at minimal levels. After a continuing
   resolution is enacted into law, the Office of Management and Budget will issue a
   bulletin to automatically apportion amounts made available by the continuing
   resolution.

   USACE Accounting and Reporting for Continuing Resolution Authority.
   USACE operated under a continuing resolution for FY 2003 until Treasury issued
   appropriation warrants authorized by Public Law 108-7, “Consolidated
   Appropriations Resolution, 2003,” February 20, 2003. Note 3, “Fund Balance
   With Treasury,” of the December 31, 2002, quarterly USACE financial
   statements stated that the $3.1 billion Fund Balance With Treasury reported by
   USACE included $1.7 billion of continuing resolution authority. Note 3 indicated
   that the $3.1 billion USACE Fund Balance With Treasury reported by USACE
   differed from the $1.4 billion USACE Fund Balance With Treasury reported by
   Treasury. This difference occurred because the $1.7 billion of continuing
   resolution authority was included in the $3.1 billion Fund Balance With Treasury
   reported by USACE.

   Evolving Criteria. The methods used by the USACE to account and report
   continuing resolution authority on December 31, 2002, differ from current
   methods, which are still evolving. Statement of Federal Financial Accounting
   Standards No. 1, “Accounting for Selected Assets and Liabilities,” March 30,
   1993, (Statement No. 1) states that an entity’s Fund Balance With Treasury is
   increased by continuing resolutions. However, the Treasury’s U.S. Government
   Standard General Ledger Board and Issues Resolution Committee (the
   Committee) posted an approved scenario, “Appropriations Provided by a
   Continuing Resolution,” October 16, 2002, on the Committee’s Web site for the
   United States Standard General Ledger, which did not increase an entity’s Fund
   Balance With Treasury during a continuing resolution, as indicated by Statement
   No. 1. The approved scenario showed a negative Fund Balance With Treasury for
   agencies operating under a continuing resolution until enactment of the regular
   appropriations bill. DoD guidance implementing the approved scenario did not
   exist at the time the December 31, 2002, quarterly USACE financial statements
   were prepared.




                                       26
On April 15, 2004, the Committee met to discuss a proposal to establish a new
account to capture the amount of Fund Balance With Treasury to be received
under a continuing resolution when a warrant has not been issued. Treasury does
not issue warrants for continuing resolutions in every instance.

However, during a followup meeting on April 29, 2004, a majority of the
Committee, including representatives from the Office of Management and Budget
and the Federal Accounting Standards Advisory Board, indicated that a new
account was not necessary and recommended adding an explanation to clarify
footnotes regarding a negative Fund Balance With Treasury during a continuing
resolution. The Committee plans to submit a recommendation to the Office of
Management and Budget to update Circular A-11, “Preparation, Submission, and
Execution of the Budget,” to include language that a negative Fund Balance With
Treasury is acceptable during a continuing resolution. The DoD plans to
implement the Treasury and Office of Management and Budget guidance.




                                  27
Appendix D. Accounting Standards and Criteria
            for Fund Balance With Treasury
            and Unexpended Appropriations
           Accounting Standards and Criteria for Fund Balance With Treasury.
           Statement of Federal Financial Accounting Standards No. 1, “Accounting for
           Selected Assets and Liabilities,” March 30, 1993,1 defines an agency’s Fund
           Balance With Treasury as the aggregate amount of funds in the agency’s accounts
           with Treasury for which the agency is authorized to make expenditures and pay
           liabilities. Fund Balance With Treasury is an intragovernmental item. From the
           reporting agency’s perspective, a Fund Balance With Treasury is an asset because
           it represents the agency’s claim to Federal Government resources. However,
           from the perspective of the Federal Government as a whole, it is not an asset; and
           while it represents a commitment to make resources available to Federal
           departments, agencies, programs, and other entities, it is not a liability.

           A Federal entity’s Fund Balance With Treasury includes clearing account
           balances. An entity’s Fund Balance With Treasury is increased by:

                   •   appropriations, reappropriations, continuing resolutions, appropriation
                       restorations, and allocations received;

                   •   transfers and reimbursements received from other agencies; and

                   •   collections and credits to appropriation or fund accounts that the entity
                       is authorized to spend or use to offset its expenditures.

           An entity’s Fund Balance With Treasury is reduced by disbursements made to
           pay liabilities or to purchase assets, goods, and services, investments in U.S.
           securities, cancellation of expired appropriations, transfers and reimbursements to
           other entities or to the Treasury, and sequestration or rescission of appropriations.

           Agencies should disclose the two parts of the Fund Balance With Treasury
           balance: the obligated balance not yet disbursed and the unobligated balance. In
           addition, agencies should explain any discrepancies between Fund Balance With
           Treasury in their general ledger accounts and the balance in the Treasury’s
           accounts and explain the causes of the discrepancies in footnotes to the financial
           statements.

           Accounting Standards and Criteria for Unexpended Appropriations.
           Statement of Federal Financial Accounting Standards No. 7, “Accounting for



1
    The Federal Accounting Standards Advisory Board (the Board) issues Statements of Federal Financial
    Accounting Standards. In October 1990, the Secretary of the Treasury, the Director of the Office of
    Management and Budget, and the Comptroller General of the United States established the mission for
    the Board, to develop accounting standards and principles for the United States Government. In October
    1999, the American Institute of Certified Public Accountants recognized the Board as the organization
    that promulgates generally accepted accounting principles for Federal entities. In May 2003, the Board
    added a representative from the Congressional Budget Office to the Board.



                                                     28
Revenue and Other Financing Sources and Concepts for Reconciling Budgetary
and Financial Accounting,” April 1996, states that appropriations, until used,
should be recognized in capital as unexpended appropriations.




                                   29
Appendix E. Treasury Reports for Fund Balance
            With Treasury
           Treasury prepares five Fund Balance With Treasury reports including three Fund
           Balance With Treasury reports for receipt accounts and two Fund Balance With
           Treasury reports for expenditure accounts.

           Treasury Reports for Receipt Accounts. The three Fund Balance With Treasury
           reports for receipt accounts are the:

                •   FMS 6655, “Receipt Account Trial Balance,”1
                •   FMS 6655, “Receipt Account Ledger,”2 and
                •   FMS 6655, “Report of Unavailable Receipt Transactions.”3
           The three reports include summary information for each receipt account regarding:

                •   current month receipts and
                •   fiscal year-to-date Fund Balance With Treasury.

           Treasury Reports for Expenditure Accounts. The two Fund Balance With
           Treasury reports for expenditure accounts are the:

                •   FMS 6654, “Undisbursed Appropriation Account Trial Balance,”4 and
                •   FMS 6653, “Undisbursed Appropriation Account Ledger.”5

           The two reports show the same summary information for each expenditure
           account:

                •   beginning fiscal year Fund Balance With Treasury,
                •   fiscal year-to-date appropriations,
                •   fiscal year-to-date nonexpenditure transfers,




1
    The FMS 6655, “Receipt Account Trial Balance,” reports both available and unavailable receipt accounts.
    Treasury issues the FMS 6655, “Receipt Account Trial Balance,” every month for each applicable
    account (including accounts with no transactions during the month).
2
    Treasury issues the FMS 6655, “Receipt Account Ledger,” for accounts with transactions during the
    month but does not list accounts that had no transactions during the month.
3
    The FMS 6655, “Report of Unavailable Receipt Transactions,” reports only unavailable receipt accounts.
    Treasury issues this report for accounts with transactions during the month but does not list accounts that
    had no transactions during the month.
4
    Treasury issues the FMS 6654, “Undisbursed Appropriation Account Trial Balance,” every month for
    each applicable account (including accounts with no transactions during the month). Treasury reported
    clearing accounts on the FMS 6654, “Undisbursed Appropriation Account Trial Balance,” for USACE.
5
    Treasury issues the FMS 6653, “Undisbursed Appropriation Account Ledger,” for accounts with
    transactions during the month but does not list accounts that had no transactions during the month.



                                                       30
               •    fiscal year-to-date net disbursements,6 and
               •    fiscal year-to-date Fund Balance With Treasury.

           The fiscal year-to-date appropriations line includes appropriation warrants issued
           by Treasury on the FMS 6200, “Department of the Treasury Appropriation
           Warrant,” or in invisible form.7

           The fiscal year-to-date nonexpenditure transfers line includes nonexpenditure
           transfers made by Treasury on the SF 1151, “Nonexpenditure Transfer
           Authorization.”

           The fiscal year-to-date net disbursements line includes net disbursements that
           agencies report to Treasury, by account, on statements of transactions.8

           Therefore, the three lines provide the universe by transaction type (appropriation
           warrants, nonexpenditure transfers, and net disbursements) applicable to each
           expenditure account.




6
    The reports also show the net disbursements by agency location code (ALC). The first two numbers of
    the agency location code represent the agency to which the Treasury has assigned the disbursing station.
    For example, net disbursements with an agency location code beginning with Treasury Index 21 represent
    disbursing stations that the Treasury assigned to the Army. Army disbursing stations now report to the
    Defense Finance and Accounting Service (DFAS) Indianapolis.
7
    Treasury does not issue a FMS 6200, “Department of the Treasury Appropriation Warrant,” for certain
    funds reported as fiscal year-to-date appropriations. Funding provided without issuance of a FMS 6200,
    “Department of the Treasury Appropriation Warrant,” is referred to as an invisible warrant.
8
    Agencies with disbursing authority report net disbursements by account on statements of transactions.
    DoD agencies use the SF 1220, “Statement of Transactions,” and the DD 1329, “Statement of
    Transactions.” The Department of State reports net disbursements by account on the SF 1221,
    “Statement of Transactions (Foreign Service Accounts).”



                                                      31
Appendix F. Glossary
   Agreed-Upon Procedures. The types of work, as defined by their objectives that
   are covered by generally accepted government auditing standards, are classified
   as financial audits, attestation engagements, and performance audits. The three
   levels of attestation engagements include examination, review, and agreed-upon
   procedures. For agreed-upon procedures work, auditors perform testing to issue a
   report of findings based on specific procedures performed on subject matter.

   Allocations. The amount of obligational authority transferred from one agency,
   bureau, or account that is set-aside in a transfer appropriation account to carry out
   the purpose of the parent appropriation or fund.

   Appropriation. In most cases, appropriations are a form of budget authority
   provided by law that permits Federal agencies to incur obligations and make
   payments out of the Treasury for specified purposes. An appropriation usually
   follows enactment of authorizing legislation. An appropriation act is the most
   common means of providing budget authority, but in some cases the authorizing
   legislation itself provides the budget authority.

   Budget Authority. Budget authority is authority provided by Federal law to
   incur financial obligations including:

      •   provisions of law that make funds available for obligation and expenditure
          (other than borrowing authority), including the authority to obligate and
          expend the proceeds of offsetting receipts and collections; borrowing
          authority (authority to borrow), which is authority granted to a Federal
          entity to borrow and obligate and expend the borrowed funds, including
          through the issuance of promissory notes or other monetary credits;

      •   contract authority that is statutory authority under which contracts or other
          obligations may be entered into prior to an appropriation for the payment
          of the obligations. The later appropriation provides cash to liquidate the
          obligations; offsetting receipts and collections as negative budget
          authority and the reduction of positive budget authority; and

      •   budget authority may be classified by period of availability (1-year,
          multiple-year, and no-year), nature of authority (current or permanent), the
          manner of determining amount available (definite or indefinite), or as
          gross (without reduction of offsetting collections) and net (with reductions
          of offsetting collections).

   Clearing Account. Treasury establishes clearing accounts to temporarily hold
   unidentified general, special, or trust collections that subsequently will be
   credited to the proper receipt or expenditure account of the Federal entity.
   Clearing accounts are preceded by an “F” followed by a fund account symbol in
   the “3800” series group.

   Deposit Fund. Treasury establishes a deposit fund account to record moneys that
   do not belong to the Federal Government.




                                        32
Drawdowns. Treasury transfers funds from expenditure accounts using
drawdowns when not using a hardcopy appropriation warrant.

FMS ([Financial Management Service]) 6200 “Appropriation Warrant”
(Hard-copy Appropriation Warrants). A hard-copy appropriation warrant is a
financial control document, issued pursuant to law (usually appropriation acts) by
Treasury, that establishes the amount of monies authorized to be withdrawn
(disbursed) from the central accounts that are maintained by Treasury. The hard-
copy appropriation warrant is the basis for recording appropriations (cash) on the
books of Treasury and the Department of Defense.

General Fund. Treasury establishes general fund expenditure accounts to record
amounts appropriated by Congress for the general support of the Government.

Government On-Line Accounting Link Information Access System II. The
system that allows Treasury to receive agency accounting data and distribute
agency accounting reports. The system includes many different subsystems for
different financial accounting and reporting purposes.

Government-Wide Accounting and Reporting Modernization. The system
established specifically for Fund Balance With Treasury to capture the Treasury
Account Symbol at the earliest possible time and post directly to the Fund
Balance with Treasury. The Government-Wide Accounting and Reporting
Modernization system streamlines the reporting and reconciliation processes,
provides one access point by way of the internet to all Treasury government-wide
accounting data, and provides reliable and timely information to users.

Interagency Transfers. Interagency transfers are made through the
Intra-governmental Payment and Collection system (formerly called the On-Line
Payment and Collection system) and the SF-1080, “Voucher for Transfer
Between Appropriations and/or Funds.”

Invisible Warrants. Treasury transfers the funds from available receipt accounts
to expenditure accounts through invisible warrants.

Materiality. The omission or misstatement of an item in a financial report is
material if, in the light of surrounding circumstances, the magnitude of the item is
such that it is probable that the judgment of a reasonable person relying upon the
report would have been changed or influenced by the omission or misstatement of
the item.

Reporting Materiality is the threshold for determining whether an unqualified
opinion can be issued. In the reporting phase, the auditor considers whether
unadjusted misstatements are quantitatively or qualitatively material. If
considered to be material, the auditor would be precluded from issuing an
unqualified opinion on the financial statements.

Planning materiality generally should be 3 percent of the materiality base.
Although a mechanical means might be used to compute planning materiality, the
auditor should use judgment in evaluating whether the computed level is
appropriate. The auditor also should consider adjusting the materiality base for
the impact of such items as unrecorded liabilities, contingencies, and other items
that are not incorporated in the entity’s financial statements (and not reflected in
the materiality base) but that may be important to the financial statement user.

                                     33
          Revolving Fund. Revolving funds are authorized by specific provisions of law to
          finance a continuing cycle of business-type operations. The receipts are credited
          directly to the revolving fund as offsetting collections and are available for
          expenditure without further action by Congress.

          Special Fund. Treasury establishes special fund expenditure accounts to record
          amounts appropriated from special fund receipts. Agencies may expend those
          receipts for special programs according to specific provisions of law.

          SF (Standard Form) 1219, “Statement of Accountability.” Each DoD
          disbursing station is required to prepare the Statement of Accountability monthly.
          The Statement of Accountability reports information to the Treasury on deposits,
          interagency transfers, and checks issued. The Statement of Accountability also
          reports net disbursements—the sum of the deposits, interagency transfers, and
          checks issued that month.*

          SF 1220, “Statement of Transactions.” Each DoD disbursing station is required
          to prepare the Statement of Transactions monthly. The Statement of Transactions
          reports the disbursements shown on the Statement of Accountability by
          appropriation. Treasury requires that the net disbursements reported on the
          Statement of Transactions agree with the net disbursements reported on the
          Statement of Accountability.*

          Transfers Between Appropriation/Fund Accounts. Occur when all or part of
          the budget authority in one account is transferred to another account when law
          specifically authorizes the transfers. The nature of the transfer determines
          whether the transaction is treated as an expenditure transfer or a non-expenditure
          transfer.

          Trust Fund. Treasury establishes trust fund expenditure accounts to record
          amounts appropriated from trust fund receipts. Agencies may expend those
          receipts for specific purposes or programs according to the terms of a trust
          agreement or statute.




*
    IG DoD Report No. D-2003-034, “Adjustments to the Intergovernmental Payments Account,”
    December 10, 2002.



                                                  34
Appendix G. U.S. Army Corps of Engineers
            Subsidiary Accounts for Fund
            Balance With Treasury
          As discussed in our prior report on the USACE accounting processes,1 agencies
          may add digits to the 4-digit United States General Ledger accounts to establish
          subsidiary accounts. However, the total amounts reported in subsidiary accounts
          added to agency-unique charts of accounts agree with the total amounts reported
          in the applicable 4-digit United States Standard General Ledger accounts.

          CEFMS uses 6-digit general ledger subsidiary accounts. For example, the United
          States Standard General Ledger account for Fund Balance With Treasury is
          account 1010, but CEFMS has 14 different general ledger subsidiary accounts
          (account 1010.11 through account 1010.54) for different types of Fund Balance
          With Treasury. The USACE United States Standard General Ledger
          account 1010, “Fund Balance With Treasury,” includes 14 CEFMS general ledger
          subsidiary accounts for posting transactions and 5 CEFMS general ledger
          subsidiary accounts for summarizing transactions recorded in the applicable
          subsidiary posting accounts as shown in the table.

          During FY 2003, USACE used 7 of the 14 subsidiary accounts for posting Fund
          Balance With Treasury transactions (account 1010.11, 1010.14, 1010.21,
          1010.31, 1010.34, 1010.41, and 1010.51) and did not use 7 of the 14 subsidiary
          accounts for posting Fund Balance With Treasury transactions (account 1010.12,
          1010.13, 1010.22, 1010.23, 1010.32, 1010.33, and 1010.54).




1
    IG DoD Report No. D-2004-023, “Financial Management: Corps of Engineers Financial Management
    System Accounting Processes,” November 18, 2003.



                                                 35
      CEFMS General Ledger Subsidiary Accounts for Fund Balance With Treasury
 General Ledger                        Account Title                  Type of
 Account Number                                                       Account
1010.00           Fund Balance With Treasury                          USSGL     DR
     1010.10      Funds Collected                                        S      DR
          1010.11 Funds Collected                                        P      DR
          1010.12 Funds Collected – Operating Program – Working          P      DR
                  Capital Fund
          1010.13 Funds Collected – Capital Program – Working Capital    P      DR
                  Fund
          1010.14 Funds Collected – Advances Received                    P      DR
     1010.20      Funds Disbursed                                        S      CR
          1010.21 Funds Disbursed                                        P      CR
          1010.22 Funds Disbursed – Operating Program – Working          P      CR
                  Capital Fund
          1010.23 Funds Disbursed – Capital Program – Working Capital    P      CR
                  Fund
     1010.30      Funds With Treasury                                    S      DR
          1010.31 Funds With Treasury                                    P      DR
          1010.32 Funds With Treasury – Operating Program – Working      P      DR
                  Capital Fund
          1010.33 Funds With Treasury – Capital Program – Working        P      DR
                  Capital Fund
          1010.34 Fund Balance With Treasury – Advances Received         P      DR
     1010.40      Undistributed Collections                              S      CR
          1010.41 Undistributed Collections                              P      CR
     1010.50      Undistributed Disbursements                            S      DR
          1010.51 Undistributed Disbursements                            P      DR
          1010.54 Undistributed Disbursements – Working Capital Fund     P      DR
                  – Installation Level


S = Summary Account used to subtotal amounts in applicable subsidiary posting
accounts.

P = Posting Account used to record transactions

DR = Debit

CR = Credit




                                          36
Appendix H. Accounting Entries to Record
            Funding
   The DoD Regulation 7000.14-R, the “DoD FMR,” volume 4, chapter 2,
   “Accounting for Cash and Fund Balances With Treasury,” January 1995, requires
   agencies to make the following accounting entries to record funding.

   Funding Received. The regulation requires the following entry to record funding
   received, including appropriation warrants, nonexpenditure transfers, and other
   authority and fund transfers from current year and prior year appropriations and
   funds.


   DR Account No. 1013, “Funds With Treasury”
        CR Account No. 3100, “Appropriated Capital”


   Funding Transferred. The regulation requires the following entry to record
   funding transferred, including nonexpenditure transfers and other authority, fund
   transfers to current year and prior year appropriations, and funds and budgetary
   authority rescinded by legislative action.

   DR Account No. 3100, “Appropriated Capital”
        CR Account No. 1013, “Funds With Treasury”




                                       37
Appendix I. FY 2003 Transactions Applicable to
             Expenditure and Receipt Accounts
             Excluded from CEFMS and
             CEEMIS


               FY 2003 Transactions (Absolute Value) Applicable to Expenditure and
                     Receipt Accounts Excluded from CEFMS and CEEMIS

                                        Expenditure              Receipt
              Transactions               Accounts1              Accounts2                  Total

           Beginning                $            806.97                    N/A      $              806.97
           Balance3

           Appropriation                 60,422,658.54                     N/A           60,422,658.54
           Warrants4

           Nonexpenditure               619,322,700.01                     N/A          619,322,700.01
           Transfers5

           Net                          578,900.000.00         $17,818,179.89           596,718,179.89
           Disbursements6

           Total                   $1,258,646,165.52           $17,818,179.89 $1,276,464,345.41




1
    Expenditure account 96033129, account 96X5007, account 96X8217, and account 9620X8863.
2
    Receipt account 965125, account 968217.001, and account 968217.002.
3
    Source: Beginning fiscal year Fund Balance With Treasury reported on the September 30, 2003,
    FMS 6654, “Undisbursed Appropriation Account Trial Balance.”
4
    Source: FMS 6200, “Department of the Treasury Appropriation Warrant,” for account 96033129 and
    account 96X5007. Invisible warrant funding from available receipt accounts for account 96X8217.
5
    Source: SF 1151, “Nonexpenditure Transfer Authorization,” for account 96X5007. Automated
    nonexpenditure transfer authorization made in the Governmentwide Accounting and Reporting system
    for account 9620X8863.
6
    Source: SF 1220, “Statement of Transactions,” for accounts 96033129 and 9620X8863. FMS 6655,
    “Receipt Account Trial Balance,” for account 965125, 968217.001, and 968217.002.



                                                    38
Appendix J. DoD Disbursing Stations, Finance
            Centers, and the DoD Reporting
            Process for Collections and
            Disbursements
As discussed in our December 2002 report on the Fund Balance With Treasury account,1
the Treasury makes collections and disbursements for most Federal agencies. Congress
provided disbursement authority to DoD under section 3321, title 31, United States Code
(31 U.S.C. 3321). DoD established disbursing stations and finance centers to make
collections and disbursements and report the information to the Treasury.

          Disbursing Stations. The DoD disbursing stations are authorized to make
          deposits, initiate interagency transfers, and issue U.S. Treasury Checks.
          Disbursing stations are accountable to the Treasury for their collections and
          disbursements. Each disbursing station is required to prepare the following
          reports monthly.

          •    SF 1219, “Statement of Accountability,” reports information to the Treasury
               on deposits,2 interagency transfers,3 and checks issued. The Statement of
               Accountability also reports net disbursements—the sum of the deposits,
               interagency transfers, and checks issued that month.

          •    SF 1220, “Statement of Transactions,” reports the disbursements shown on the
               Statement of Accountability by appropriation. The Treasury requires that the
               net disbursements reported on the Statement of Transactions agree with the net
               disbursements reported on the Statement of Accountability.

          Finance Centers. The DoD finance centers and the military activities make
          intergovernmental payments through the Interfund Billing System.4 The finance
          centers report intergovernmental payments made through the Interfund Billing
          System on the DD Form 1400, “Statement of Interfund Transactions.” The
          Statement of Interfund Transactions reports intergovernmental payments made
          through the Interfund Billing System by appropriation.
          Reporting Process for Collections and Disbursements. Each DoD disbursing
          station submits its monthly Statement of Accountability and Statement of
          Transactions to a finance center. Army disbursing stations report to DFAS
          Indianapolis, Indianapolis, Indiana; Navy disbursing stations report to DFAS
          Cleveland, Cleveland, Ohio; Air Force disbursing stations report to DFAS Denver,

1
    IG DoD Report No. D-2003-034, “Adjustments to the Intergovernmental Payments Account,”
    December 10, 2002.
2
    The Statement of Accountability reports deposits and electronic funds transfers as a combined total on
    line 4.2, “Deposits Presented to Bank.”
3
    Interagency transfers are made through the Intra-governmental Payment and Collection System (formerly
    the On-line Payment and Collection System) and the SF-1080, “Voucher for Transfer Between
    Appropriations and/or Funds.”
4
    The Interfund Billing System includes supply system sales and purchases of material, including
    perishable subsistence and fuels, between the Defense agencies, Army, Navy, and Air Force.



                                                      39
Denver, Colorado; and USACE disbursing stations report to the USACE Finance
Center, Millington, Tennessee.

Each finance center combines the Statements of Accountability received from its
disbursing stations and electronically submits a combined Statement of
Accountability to the Treasury using the Government On-Line Accounting Link
System II, a Federal financial telecommunications network. The finance centers
also combine the Statements of Transactions and the Statements of Interfund
Transactions and submit the combined statement to the Treasury every month.

The Treasury records the collection and disbursement data from the Statements of
Transactions in the Fund Balance With Treasury account maintained for each
receipt account and expenditure account in the U.S. Treasury’s accounting and
reporting system. The Treasury issues the monthly Fund Balance With Treasury
reports, as previously discussed, which state the net disbursement data (the net of
collections and disbursements) applicable to each agency’s accounts.




                                     40
Appendix K. Procedures and Requirements for
            Interagency Transfers
   Treasury and DoD have established procedures for processing interagency
   transfers, requirements for reporting interagency transfers to Treasury on the
   Statement of Accountability, and requirements for reconciling interagency
   transfer differences reported by Treasury on the Statement of Differences.

   Procedures for Processing Interagency Transfers. Volume I, part 6,
   chapter 4000, “On-line Payment and Collection (OPAC) System,” October 14,
   1994, of the Treasury Financial Manual establishes procedures for making online
   billings, collections, and payments through the system. Volume 5, chapter 24,
   “Electronic Commerce,” August 1999, of DoD Regulation 7000.14-R, the “DoD
   FMR,” implements the Treasury procedures for using the system. USACE did
   not establish procedures for processing interagency transfers.

   On December 3, 2001, the Treasury replaced the On-Line Payment and Collection
   system, which had been operational since 1985, with the Intra-governmental
   Payment and Collection system. Agencies process interagency transfers through
   the Treasury’s Intra-governmental Payment and Collection system based on
   requirements established in the Treasury Financial Manual and trading
   partnership agreements. Agencies agree to abide by monthly cut-off dates
   established in trading partnership agreements and not process interagency
   transfers after the cut-off date. The USACE trading partnership agreement states
   that: “Both Trading Partners agree not to process any IPAC/OPAC transactions
   during the last five (5) business days of the month without prior approval of both
   parties.”

   Requirements for Reporting Interagency Transfers to Treasury on the
   Statement of Accountability. Volume I, part 2, chapter 3100, “Instructions for
   Disbursing Officers’ Reports,” February 6, 1997, of the Treasury Financial
   Manual, requires agencies to report interagency transfers processed through the
   Intra-governmental Payment and Collection system (formerly the On-Line
   Payment and Collection system) on line 2.80, “OPAC Payments and Collections,”
   of the SF 1219, “Statement of Accountability.” Volume 5, chapter 19,
   “Disbursing Officer Accountability Reports,” August 1999, of DoD
   Regulation 7000.14-R, the “DoD FMR,” implements the Treasury reporting
   requirements. USACE Desk Operating Procedure No. 14, “SF 1220 & SF 1219
   Statements of Accountability,” March 6, 2000, establishes USACE procedures for
   preparing the SF 1219, “Statement of Accountability.” However, the USACE
   procedure did not include guidance for reporting interagency transfers.

   Requirements for Reconciling Interagency Transfer Differences Reported by
   Treasury on the Statement of Differences. Volume I, part 2, chapter 5100,
   “Reconciling Fund Balance With Treasury Accounts,” October 18, 1999, of the
   Treasury Financial Manual requires agencies to perform timely reconciliations
   and implement effective and efficient reconciliation processes for the Fund
   Balance With Treasury account. Treasury has designed a central reconciliation
   process to support the reconciliation of the Fund Balance With Treasury account.




                                       41
Treasury reports its reconciliation for interagency transfers to agencies on the
FMS 6652, “Statement of Differences Disbursing Transactions,” (Statement of
Differences). The Statement of Differences compares interagency transfer totals
reported on line 2.80, “OPAC Payments and Collections,” of the agency’s
Statement of Accountability with interagency transfer schedules produced by the
Government On-Line Accounting Link System. Treasury requires agencies to
document their reconciliation of the differences and make the reconciliation
available to agency management, auditors, and Treasury, if requested.

Volume 5, chapter 24, “Electronic Commerce,” August 1999, of DoD
Regulation 7000.14-R, the “DoD FMR,” implements the Treasury procedures for
reconciling interagency transfer differences.

The USACE has developed procedures for reconciling differences. However, the
procedures did not require accountants to identify the cause of the interagency
transfer differences or the impact of the differences on either the Treasury reports
for Fund Balance With Treasury or the Fund Balance With Treasury reported on
the USACE financial statements.

Interagency transfer differences may be caused by either interagency transfers
that have been successfully processed through the Intra-governmental Payment
and Collection system (processed interagency transfers) or that have not been
successfully processed through the Intra-governmental Payment and Collection
system (unprocessed interagency transfers). Interagency transfer differences
caused by unprocessed interagency transfer collections and unprocessed
interagency transfer disbursements may have the following impacts.

       •   Unprocessed Interagency Transfer Collections. Interagency transfer
           differences, caused by including unprocessed interagency transfer
           collections in the agency disbursing system and erroneously reporting
           the collections to Treasury on the Statement of Accountability and
           Statement of Transactions, will understate net disbursements and
           overstate balances reported on Treasury reports for Fund Balance With
           Treasury. If the (1) unprocessed interagency transfer collections
           included in the disbursing system are erroneously included in the
           agency accounting general ledger system, and (2) the agency does not
           adjust the agency financial statements to remove the unprocessed
           interagency transfer collections erroneously included in the agency
           accounting general ledger system, then the unprocessed interagency
           transfer collections will cause the agency to overstate Fund Balance
           With Treasury reported on the agency financial statements.

       •   Unprocessed Interagency Transfer Disbursements. Interagency
           transfer differences, caused by including unprocessed interagency
           transfer disbursements in the agency disbursing system and
           erroneously reporting the disbursements to Treasury on the Statement
           of Accountability and Statement of Transactions, will overstate net
           disbursements and understate balances reported on Treasury reports for
           Fund Balance With Treasury. If the (1) unprocessed interagency
           transfer disbursements included in the disbursing system are
           erroneously included in the agency accounting general ledger system,
           and (2) the agency does not adjust the agency financial statements to
           remove the unprocessed interagency transfer disbursements
           erroneously included in the agency accounting general ledger system,

                                     42
          then the unprocessed interagency transfer disbursements will cause the
          agency to understate Fund Balance With Treasury reported on agency
          financial statements.

Interagency transfer differences caused by processed interagency transfer
collections and processed interagency transfer disbursements may have the
following impacts.

      •   Processed Interagency Transfer Collections. Interagency transfer
          differences, caused by erroneously omitting processed interagency
          transfer collections from the agency disbursing system, and
          erroneously omitting the collections on the Statement of Accountability
          and Statement of Transactions reports to Treasury, will overstate net
          disbursements and understate balances reported on the Treasury reports
          on Fund Balance With Treasury. If the (1) processed interagency
          transfer collections erroneously omitted from the disbursing system are
          erroneously omitted from the agency accounting general ledger
          system, and (2) the agency does not adjust the agency financial
          statements to add the processed interagency transfer collections
          erroneously omitted from the agency accounting general ledger
          system, then the processed interagency transfer collections will cause
          the agency to understate Fund Balance With Treasury reported on
          agency financial statements.

      •   Processed Interagency Transfer Disbursements. Interagency
          transfer differences, caused by erroneously omitting processed
          interagency transfer disbursements from the agency disbursing system,
          and erroneously omitting the disbursements on the Statement of
          Accountability and Statement of Transactions reports to Treasury, will
          understate net disbursements and overstate balances reported on the
          Treasury reports for Fund Balance With Treasury. If the (1) processed
          interagency transfer disbursements erroneously omitted from the
          disbursing system are erroneously omitted from the agency accounting
          general ledger system, and (2) the agency does not adjust the agency
          financial statements to add the processed interagency transfer
          disbursements erroneously omitted from the agency accounting
          general ledger system, then the processed interagency transfer
          disbursements will cause the agency to overstate Fund Balance With
          Treasury reported on agency financial statements.

The table summarizes the impacts of interagency transfer differences on the
Treasury reports for Fund Balance With Treasury and the Fund Balance With
Treasury reported on agency financial statements when interagency transfer
differences are caused by erroneously including unprocessed interagency transfer
collections and disbursements, or erroneously omitting processed interagency
transfer collections and disbursements in the Statement of Accountability reports
to Treasury and the agency accounting general ledger system.




                                   43
                 Table. Impact of Interagency Transfer Differences on Treasury
                  Reports for Fund Balance With Treasury and Fund Balance
                   With Treasury Reported on Agency Financial Statements

           Cause of Interagency            Impact on Treasury Reports for                Impact on
           Transfer Difference              Fund Balance With Treasury                     Agency
                                                                                          Financial
                                                                                         Statements

                                              Net              Fund Balance           Fund Balance
                                         Disbursements         With Treasury          With Treasury*

           Unprocessed
           Interagency Transfer
           Collection Reported
           on Statement of
           Accountability                   Understate            Overstate              Overstate

           Unprocessed
           Interagency Transfer
           Disbursement
           Reported on Statement
           of Accountability                Overstate             Understate             Understate

           Processed Interagency
           Transfer Collection
           Not Reported on
           Statement of
           Accountability                   Overstate             Understate             Understate

           Processed Interagency
           Transfer Disbursement
           Not Reported on
           Statement of
           Accountability                   Understate            Overstate              Overstate




*
    Impact on Fund Balance With Treasury reported on agency financial statements when agencies do not
    adjust the financial statements for interagency transfers erroneously included or erroneously omitted from
    the Statement of Accountability reports to Treasury and the agency accounting general ledger system.



                                                      44
Appendix L. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Commander, U.S. Army Corps of Engineers
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service

Non-Defense Federal Organization
Office of Management and Budget




                                          45
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        46
u.s. Army Corps of Engineers Comments




  . CflR (36-2b)

    MEMORANDUM
                             DEPARTMENT        OF TtE ARMY
                               u... NWY CORPS OF ENGINEEIUI
                                        441 B IJT.IIW
                                 wAlHlNGTOH, DoC.:IU1+1DOO




                                                              15 December 2004

                   FOR Director, Defense Ananclal Auditing Service, Inspector
    General Department of Defense. 400 Army Navy Drive, Ariington, VA22202

    SUBJECT: Draft Report on Reliability of U.S. Army Corps of Engineers, Qvll
    Works, Fund Balance WIthTreasury and UnexpendedAppropriations.
    (Project: No. D2004fD-0044)
                                                                                 .




    The USACE response to each Department of Defense Inspector General
    (DoDIG) report recommendations fOllows:

    RECOMMENDATION A.l: We recommend that the Commander, U.S. Army
    Corps of Engineers:

         a. Revise accounting practices for expenditure account 96X8333,
         account 9620X8861, account 9689X4045, and account 9669X8083 to
         comply with generally accepted accounting principles and exdude
         contract: authority from the -Fund Balance With Treasury account, as
         required by Statement of Federal FinancialAccounting Standards No.
         1, "Accounting for Selected Assets and Uabilities," Paragraph 34,
         March30, 1993.
    Comments:
        Concur: A CEFMS problem report will be entered by 31 December
        2004 to cite the requirements of SFFAS No 1, paragraph 34. USACE
        Fmance Center {UFC)Dlreaorate of Financial SY$tems will provide an
        estimated tlmeframe to accomplish the system change. USACE is
        presently making a journal voucher adjusting the flnandal statements
        to reduce the work allowance/contract authority from the Funds
        Balance wfth Treasury account, therefore ensuring that the financial
        statements are reasonably and fairly presented.

         b. Modify the U.S. Army Corps of Engineers Financial Management
         System to comply with generally accepted accountIng principles and
         exclude contract authority from the Fund Balance WIth Treasury
         account, as required by Statement of federal Anandal Accounting
         Standard No.1, "Accounting for Selected Assets and Uabllitles,"
         paragraph 34, March 30, 1993. Specifically. modify the system to




                                        47
CBR (3~2~                                               15D~~r20~
SUBJECT: DraftReport on Reliability of U.S. Army Corps of EnglneerstClvll
Workst Fund Balance With Treasury and Unexpended     Appropriations.
(Project No. D2004FD-0044)


      atlow vend obligations to be recorded for trust fund accounts, with
      suffldent contract authority to cover the obligation, without regard to
      the balance In the Fund BalanceWithTreasury account.
      COmments:
      Concur: see response to A.La. above. A CEFMSproblem report will
      be entered to dte the requirements of SFFASNo 1, paragraph 34.
      UFC Directorate of Financial Systems wfll provide an estimated
      tlmeframe to accomplish the system change. Presently, the CEFMS
      system will not allow for an obligation to be processed without proper
      autnorlty In the system.
      c. establish and maintain U.S. Standard General Ledger account 1010,
      "Fund Balance With Treasury," in the U.S. Army Corps of EngIneers
      Financial Management System and the U.S. Army Corps of Engineers
      Enterpri$e Management Information System to fadlltatereconclliatlon
      with Treasury reports for Fund Balance With Treasury. SpedficallYt
      establish Fund Balance With Treasury accounts for:
(1)   Expenditure account 96033129, "Payment to the South Dakota
      Terrestrial Wildlife Habitat Restoration Trust Fund {fiscal year)t"
      account 96XS007, "Special Recreation Use Fees, Corps of Englneerst
      CM'," account 96X821't "South Dakota Terrestrial WildlifeHabitat
      RestoratIon Trust Fund," and account 9620X8863, "Harbor
      Maintenance Trust Fund.   II




(2)   Receipt account 965125t "'Ucenses Under Federal Power Actt
      Improvements of Navigable Waterst Maintenance and Operation. of
      Dams," account 968217.001, "'Payment from General Fund, South
      Dakota Terrestrial Wildlife Habitat RestoratIOn Trust Fund," and
      account 968217.002, "'Earnings on Investments, South Dakota
      Terrestrial Wildlife Habitat Restoration Trust Fund."
comments:
Concur: USACEwill establish procedures to record the Treasury warrant
and the payment from the expenditure account and coUectlon to the South
Dakota Terrestrial WildlifeHabitat Restoration Trust Fund In the CEFMS
database (96X033129 and 96X8217.001). In addltloot USACEwill
investigate ISpossible method of recording In CEFMSthe appropriatlon-
96XS007, Special Recreation Use Fees, Harbor Maintenance Trust Fund-96

                                          2




                                     48
CElR (3&-2b)                                            15 December 2004
SUBJECT: Draft: Report on Reliability of U.S. Army Corps of Engineers, Ovil
Works, Fund Balance WIth Treasury and Unexpended Appropriations.
(Project No. D2004fD-0044)

20X8863, SOUth Dakota Trust fund- 96X8217.002, Ucenses Under Federal
Power Acf-96XS125, and 96X8217 South Dakota Terrestrial Wildlife Habitat
Restoration Trust Fund. USACEFinance center will coordinate with HQ
Budget on issuing a Funding AuthorlDtlon Document and subsequent
revocation to be recorded In the CEFMSdatabase for 96XSOO7.


d. Establish and maintain separate Fund Balance With Treasury subsidiary
accounts In the U.S. Army Corps of Engineers Financial Management System
and the U.S. Army Corps of Engineers Enterprise Management Information
System to facilitate reconciliation with Treasury reports for Fund Balance
With Treasury subsidiary accounts for:
      (1)   Appropriation warrants Including (a) FMS 6200, "Department of
            the Treasury Appropriation Warrant, (b) invISible warrant
                                                   If


            funding, and (c) drawdowns.
      (2)   SF 1151, "Nonexpendlture Transfer Authorization," and
            electronic nonexpendlture transfer made through the
            Government-wide accounting system.
      (3)   BeginningfIScalyear Fund Balance WithTreasury.
Comments:
Concur:     HQUSACE will coordinate with 05D(C) on their gUidance for
establishing fund type specific general ledger attributes and CEFMS will be
modified to be In compliance with the OSD (C) guidance.

e. Develop a comprehensive standard operating procedure for Fund Balance
With Treasury that requires accountants to:
     (1) Compare the Fund Balance With Treasury accounts for each
     expenditure and receipt account reported on the monthly Treasury
     reports for Fund Balance With Treasury with the Fund Balance With
     Trusury accounts established in the U.S. Army Corps of Engineers
     Ananeisl Management System and the U.S. Army Corps of Engineers
     Enterprise Management Information System to ensure the recording of
     all accounts in both systems.
Comments:

                                     3




                                     49
.   CEIR (36-2b)                                           lS December 2004
    SUBJECT: Draft Report on Reliability of U.S. ArmV COrps of Engineers, Civil
    Worles, Fund Balance With Treasury and Unexpended Appropriations.
    (Project No. D2004FD.00(4)

    Concur: The recondliation of Funds Balance With Treasury expenditure and
    receipt accounts to Treasury monthly report Is being performed on a
    monthly basis. During fY 2005 the UFC will coordinate with HQ Budget on
    Issuing Funding Authorization Documents and applicable revocations to.
    support and reflect the actMty reflected on the Treasury 6653/6655.
    Current UFC SOPS witl be revised to reflect requirement to reconcile at
    CEFMS transaction level to the Treasury 6653/6655.         UFC standard
    operating procedure "Reconciling Funds Balance with Treasury to Treasury
    FMS 6653/6654/6655'"     dated Mard\ 2004 covers the recondllatlon
    procedures.
         (2) ReconCIle applicable Fund Balance With Treasury subsidiary
         accounts shown In. the U.S. Army Corps of Engineers Finandal
         Management System and the U.S. Army Corps of Engineers Enterprise
         Management Information System for each expenditure and receipt
         account with amounts reported on monthly Treasury reports for Fund
         Balance With Treasury.

    Comments:
    Concur: Reconciliation is performed at the summary account (1010) USSGL
    level. On December 15, 2004, HQUSACErequested OSD(C) guidance for
    establishing fund type spedfic general ledger attributes and CEFMS will be
    modified to be In compliance with the OSD (C) guidance.

    f. Revise the USACEprocedures to indude:
          (1) An overall table of contents, to a website to facilitate the
         availability of the Information.
         Comments: Concur UFC will work to establish a link on the public
         website to the US Army Corps of EngIneer Finance Center SOP's. This
         will be compteted by 28 February 2005.
          (2) Number and issue date of superceded procedures.
          Comments: Concur UFCwill keep web site updated and current.
          (3) Issue date and effective date for revised or new procedures,
          Comments: Concur UFCwill keep web site updated and current.
          (4) Summary of procedural changes.
          Comments: Concur UFCwill keep web site updated and current.


                                           4



                                      50
CEJR (36-2b)                                            15 December 2004
SUBJECT: Draft Report on Reliability of U.S. Army Corps of Engineers, Civil
Works, Fund Belance With Treasury and Unexpended Appropriations.
(Project No. D2004FD~0044)


     (5) Point of contact and phone number.
     Comments: Concur UFCwill keep web site updated and current.

RECOMMENDATION 8. We recommend that the Commander, U.S. Army
Corps of engineers develop a comprehensive standard ope~tlng procedure
for Fund Balance With Treasury that:

1. establishes cut-off procedures for Interagency transf~rs that comply with
monthly cut-off dates established In trading partner agreements for
Interagency transfers.

Comments:
Concur: Cutoff procedures were implemented In FY 2004 In aCtOrdance
with trading partner agreements and DFAS regulatton. Reference DFAS
7230 1-1, paragraph 6.1.4 dated 30 April2004.
2. Requires USACEaCtOuntants to:
      (a) Report Interagency transfers on the Statement of Accountability
      and Statement of Transactions In compliance with fiscal year-end cut-
      otI's established in trading partner agreements      for Interagency
      transfers.
      (b) ReconcUe Interagency transfer differences reported on the monthly
      Treasury Statements of Differences and develop a matrix (similar to
      the table In Appendix J to document the effect of the differences on
      the:
            (1)   Fund Balance With Treasury amounts reported on the
                  monthly Treasury reports on Fund Balance With Treasury.
      Comments: Concur Interagency transfer transactions are posted to
      the Statement of Accountability and Statement of Transactions In
      CEFMSas the transactions are processed. ThiS Is Incorporated Into the
      SOP 104 "Recondllation of Statement of Differences for Check Issue,
      Deposits and Intra-GovemmenaJ Payment and Collection (IPAC)" dated
      April 2004.
            (2)   Fund Balance With Treasury amounts reported on the
                  quarterly and year-end U.S. Army Corps of Engineers'
                  "nanelal statements.

                                      5




                                     51
CEIR (36.2b)                                          15 December 2004
SUBJECT: Draft Report on Reliabilityof U.S. Army Corps of Engineers, Ovll
Works, Fund Balance With Treasury and Unexpended ApproprIations.
(Project No. D2004FD-0044)


      Comments: Concur UFC-SOP104 dated April 2004 Is In placeto
      reconcile the Statement of Differences 'and win be referenced In the
      updated comprehensive UFC-SOP 102, dated March 2004, for
      reconciling Fund Balance with Treasury to be completed during FY
      2005.

      (c) Adjust amounts to be reported on the quarterly and year.end U.S.
      Army Corps of EngIneers' flnandal statements resulting from the
      reconciliation of the Treasury Statements of Differences when the error
      will cause a material misstatement If an adjustment Is not made.
      Speclftcally, USACeshould adjust proprietary accounts including, Fund
      Balance With Treasury, accounts receivable, and applicable budgetary
      accounts.
Comments:     Concur Procedure Is In place to Incorporette the statement of
differences amount Into the financial statements. UFC.SOP089 dated May
2004 .. "Audited Financial Statements"willbe revisedand updated during
f'( 2005 to Include the specific-requirements   and procedures for Indudlng
the statement of differences.


      Cd) Recondle revolving fund (96X4902) collections and disbursements
      reported)n the U.S. Army Corps of Engineers Flnandal Management
      System with the monthly Treasury reports for Fund Balance With
      Treasury (FMS 6653, "Undisbursed Appropriation Account Ledger") as
      foUows:
            (1)   Reconcile revolving fund coUections separately from
                  disbursements.
                  Comments:      Concur Revolving Fund cash is separately
            reconciled on II monthly basis. UFC personnel maintain
            supporting documentation and an audit trail to support the
            balance. CUrrent UFC Revolving Fund cash Recondliatlon SOPs
            will be revised during FY 2005 to formalize the detailed and
            speCIfic procedures    for reconciling the Revolving Fund
            appropriatIon.

            (2)   Reconcile revolving fund collections by collecting agency
                  and revolving fund disbursements by disbursing agency.

                                        6



                                       52
CEtR (36-2b)                                          15 December 2004
SUBJECT: Draft Report on Rel1abllltyof U.S. Army Corps of EngIneers, Civil
Works, Fund Balance With Treasury and Unexpended Appropriations,
(Project No. D2004FD-0044)

  COmments: COncur Current UFCRevolving Fund Cash Reconciliation
SOPs will be revised during FY2005 to formalize the detailed and specific:
procedures for reconciling the Revolving Fund appropriation. A line Item on
the 6653 may consist of disbursements and COllections,but Is reported on
the 6653 as a net disbursement. As stated in item (4) above, the net
transactions are reconciled monthly. UFC personnel maintain supportJng
documentation and an audit trail to support the balance.
The POC for this response Is Ms. Cynthia Blevins (901) 874-8408 or Mr.
Imtlaz Bader (202) 761-1987

FOR THE COMMANDER:

                              ~
                         f
                         .
                             DONALD J. FUPP
                             Chief, Audit Executive
                             U.S. Army Corps of Engineers




                                      7




                                    53
Team Members
The Office of the Deputy Inspector General for Auditing of the Department of
Defense, Defense Financial Auditing Service prepared this report. Personnel of
the Office of the Inspector General of the Department of Defense who contributed
to the report are listed below.

Paul J. Granetto
Douglas P. Neville
Robert E. Benefiel, Jr.
William W. Lemmon
James H. Fleischman
Jose J. Delino
Marlon A. Moreira
John C. Petrucci
Benjamin M. Howison
Michael A. Polak
Thomas G. Daquano, Jr.
William R. Fagerholm
Ann Thompson
